<html>
<title> - THREATS TO REPRODUCTIVE RIGHTS IN AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
               THREATS TO REPRODUCTIVE RIGHTS IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                          SUBCOMMITTEE ON THE
                      CONSTITUTION, CIVIL RIGHTS,
                          AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

                           Serial No. 116-23

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         

         


        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-177               WASHINGTON : 2020         
 
 
 
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, 
                          AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana,
ERIC SWALWELL, California              Ranking Member
MARY GAY SCANLON, Pennsylvania       LOUIE GOHMERT, Texas
MADELEINE DEAN, Pennsylvania         JIM JORDAN, Ohio
SYLVIA R. GARCIA, Texas              GUY RESCHENTHALER, Pennsylvania
VERONICA ESCOBAR, Texas              BEN CLINE, Virginia
SHEILA JACKSON LEE, Texas            KELLY ARMSTRONG, North Dakota

                       James Park, Chief Counsel
                      Paul Taylor, Minority Counsel
              
                            C O N T E N T S

                              ----------                              

                              JUNE 4, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Mike Johnson, Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     3
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     6
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     8

                               WITNESSES

Melissa Murray, Professor of Law, New York University Law School
    Oral Testimony...............................................    10
    Prepared Testimony...........................................    13
Busy Philipps, Actor and Advocate
    Oral Testimony...............................................    23
    Prepared Testimony...........................................    25
Owen Phillips, The University of Tennessee Health Science Center
    Oral Testimony...............................................    28
    Prepared Testimony...........................................    30
Christina Bennett, Communications Director, Family Institute of 
  Connecticut
    Oral Testimony...............................................    32
    Prepared Testimony...........................................    34
Melissa Ohden, Kansas City, Missouri
    Oral Testimony...............................................    38
    Prepared Testimony...........................................    40
Jennifer Dalven, Director, ACLU Reproductive Freedom Project
    Oral Testimony...............................................    43
    Prepared Testimony...........................................    45
Yashica Robinson, Medical Director, Alabama Women's Center for 
  Reproductive Alternatives
    Oral Testimony...............................................    52
    Prepared Testimony...........................................    55
H.K. Gray, Activist, Youth Testify
    Oral Testimony...............................................    58
    Prepared Testimony...........................................    60

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Statement from the National Partnership for Women and Families, 
  submitted by The Honorable Jerrold Nadler, Chairman, Committee 
  on the Judiciary...............................................    71

                                APPENDIX

Items for the record submitted by The Honorable Steve Cohen, 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................    86


                    THREATS TO REPRODUCTIVE RIGHTS 
                               IN AMERICA

                              ----------                              


                         TUESDAY, JUNE 4, 2019

                        House of Representatives

            Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2141, Rayburn Office Building, Hon. Steve Cohen [chairman 
of the subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Raskin, Scanlon, 
Dean, Garcia, Escobar, Jackson Lee, Johnson of Louisiana, 
Collins, Gohmert, Cline, and Armstrong.
    Also Present: Representatives Chu, Roby, and Lesko.
    Staff present: Lisette Morton, Director of Policy, 
Planning, and Member Services; Madeline Strasser, Chief Clerk; 
Moh Sharma, Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; James Park, Chief Counsel, 
Constitution Subcommittee; Sophie Brill, Counsel, Constitution 
Subcommittee; Will Emmons, Professional Staff Member, 
Constitution Subcommittee; Paul Taylor, Minority Counsel; and 
Andrea Woodward, Minority Professional Staff Member.
    Mr. Cohen. Good morning, everyone. The Committee on the 
Judiciary Subcommittee on the Constitution, Civil Rights, and 
Civil Liberties, will come to order. Without objection, the 
chair is authorized to declare recesses of the subcommittee at 
any time.
    I welcome everyone to today's hearing on threats to 
reproductive rights in America. I will now recognize myself for 
my opening statement.
    More than 45 years ago, the United States Supreme Court 
recognized that women must have the right to control their own 
bodies, including by having the right to decide when to have 
children and when to terminate a pregnancy. Now, it was not an 
unlimited right, but it was a right. More than 25 years ago, 
the Supreme Court affirmed that right after years of sustained 
opposition.
    Now in this year, the year of 2019, the rights of women 
across the Nation are under attack like never before. It 
started with a flurry of laws meant to scare and shame women 
and to regulate abortion providers out of existence. These laws 
require clinics to offer or perform ultrasounds on women and 
even to provide medically inaccurate counseling, counseling 
dictated by the legislature, not by doctors. They demean women 
by imposing ``waiting periods,'' and some, such as my home 
State of Tennessee, compound the obstacles and red tape by 
requiring women to travel to a clinic to receive the State's 
mandated lecture, written by our general assembly, about her 
body in person, then undergo a waiting period, and then travel 
back to the appointment.
    Other laws, also enacted under the guise of protecting 
women, have attempted to shut clinics down by requiring doctors 
to obtain admitting privileges at nearby hospitals and 
requiring the clinics to outfit themselves like surgical 
facilities. Ironically, because abortion is such a low-risk 
procedure, doctors are often unable to meet the requirements 
for admitting privileges because few or none of their patients 
ever require a hospital visit.
    In Alabama, as Dr. Yashica Robinson will note, the State 
passed legislation that require her clinic to relocate to a new 
facility so that it could meet burdensome new physical 
requirements. Then when the relocation was complete, the State 
passed a law to try to chase the clinic away again by 
prohibiting it from operating next to a nearby school. It was 
only through the intervention of a Federal judge that the 
clinic was allowed to stay open.
    A few years ago, there was some hope that the Supreme 
Court's ruling in Whole Women's Health v. Hellerstedt would put 
a stop to laws like these. In that case, the Court struck down 
a Texas law that required doctors providing abortions to obtain 
admitting privileges at hospitals, and required providers to 
have the physical capacity of a full surgical facility. The 
Supreme Court, with Justice Kennedy joining the majority 
opinion, held that these requirements had no medical benefit 
for women and would serve only to close down clinics, leading 
to particularly harsh results for poor women and women in rural 
communities.
    But Justice Kennedy has now been replaced by Justice 
Kavanaugh, and it now seems that the gloves are off. Many 
States have dropped the pretense all together that they are 
somehow trying to protect women. This year alone, Georgia, 
Kentucky, Mississippi, and Ohio have enacted laws banning 
abortion once a fetal heartbeat is detected, which occurs 
approximately 6 months into a pregnancy, before many women even 
know they are pregnant.
    Alabama has enacted a law banning abortion outright with 
exceptions only in cases where the life of the mother is in 
danger. There are no exceptions for rape or incest or for 
women's health. Missouri has enacted a law banning abortions 
after 8 weeks, and Arkansas and Utah have enacted laws banning 
abortions after 18 weeks, all periods in which Roe v. Wade 
protects a woman's right. Many other States have enacted the 
so-called trigger laws that would immediately ban abortion if 
the Supreme Court overturns its decision in Roe v. Wade. These 
States appear to be betting that the Court is about to take 
that step.
    We cannot afford to go back. I would not presume to know 
what it is like for a woman to live in a world where she has to 
participate in a crime in order to end a pregnancy that she 
does not want, or cannot afford to have, or cannot put her body 
through, or was the result of rape or incest. Americans, 
Democrats and Republicans, are in strong, strong support of 
allowing abortion when it is the result of rape or incest or to 
protect the life of a woman. And in most of these States' new 
laws, those exceptions are not written into the law, making it 
a very, very minor, unpopular, and undemocratic approach.
    I do remember what it was like for the women I knew growing 
up. I remember when a friend of my family needed to get an 
abortion when it was illegal in the United States, pre-Roe v. 
Wade. She was relatively lucky. She was wealthy, so she was 
able to fly across the country to California and go to Tijuana. 
And it made me realize--I was only 14 or 15 years old--what a 
poor person would be and the circumstance they would be in. 
They would be out of luck because they couldn't afford that 
first-class air ticket or the coach class air tickets. But air 
tickets were expensive in the 60s, and to go across country and 
to go to Mexico was an expensive ordeal, which people of means 
could afford to do. People not of means could not.
    This had a disparate impact upon poor women, women of 
color, women of rural communities who couldn't take the time 
off or had the money to make that trip. If States are allowed 
to outlaw access to abortion again, these laws would doubtless 
have that disparate impact on these groups of women, just as it 
was when it was illegal before Roe v. Wade.
    Women are fighting back. Our witnesses today include two 
legal experts who are raising awareness of these issues, one of 
whom is fighting day after day to keep these clinics open. We 
will also hear from two physicians who provide reproductive 
healthcare to patients, including abortion care when necessary. 
And we have two women with the courage to share their own 
stories about receiving abortions, because they have recognized 
how important it is to de-stigmatize this subject and stop 
shaming women for their choices and medical histories. I thank 
our witnesses for being here today, and I look forward to 
hearing from each of the women on the panel about this critical 
and timely subject.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from Louisiana, Mr. Johnson, 
for his opening statement.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. This is 
a serious issue, and there may be no more divisive issue in our 
country than the decades-long battle over the sanctity of human 
life. Indeed, many Americans regard this as the defining issue 
of our times.
    In Congress, our Pro-Life Caucus and Republican Conference 
members work hard every day to advance measures to protect more 
children in the womb because they are the most vulnerable and 
threatened lives in our society. We do this work because we 
share the same deep and abiding conviction that so many of the 
founders of this extraordinary Nation did about the sanctity of 
human life. It is that seminal conviction, of course, that is 
recorded in the very birth certificate of our Nation, the 
Declaration of Independence, and has come to be known as our 
Nation's creed. You know the language well: ``We hold these 
truths to be self-evident, that all men are created equal, that 
they are endowed by their Creator with certain unalienable 
rights, that among these are life, liberty, and the pursuit of 
happiness.''
    We believe, as the founders articulated, that every single 
human life is sacred because that value is given to us not by 
the State, but by our Creator in Whose image all of us are 
made. Because of this, every single human life has inestimable 
dignity and value, and our value is not related in any way to 
the color of our skin, our zip code, our socioeconomic status, 
our level of talent or education, or what we can contribute to 
society. Our value is inherent because it is given to us by our 
Creator.
    During the first 2 centuries of our republic, most 
Americans accepted and revered the biblical truths that every 
human being is fearfully and wonderfully made, and personally 
known by our Creator, God, even before they were formed in 
their mother's womb. The rejection of that essential truth has 
now led to the murder of more than 60 million innocent pre-born 
children since 1973's Roe v. Wade. What an unspeakable tragedy 
this is.
    In addition to the deeply-held conviction about the lives 
of the unborn, millions of conscientious Americans also support 
pro-life legislation and reasonable restrictions on the 
abortion practice because it is pro-women to do so. The 
abortion industry itself presents very real dangers for 
millions who are in difficult circumstances. I bring firsthand 
knowledge of those dangers to this hearing today. Prior to my 
election to Congress, I spent a good portion of my 20-year 
legal career in the courts defending commonsense, pro-life 
legislation when those laws are challenged, and litigation to 
protect vulnerable women who were irreparably harmed by the 
notorious practices of the abortion industry. In fact, I was 
co-counsel in the trial of one of the cases that the chairman's 
hearing memo today laments was upheld by the Fifth Circuit in 
2018.
    Over the course of my career, we uncovered and made public 
shocking evidence, including the documented use of rusted 
surgical instruments, filthy and dangerous conditions in the 
clinics, unlicensed doctors engaging in physical and emotional 
abuse of patients, falsifying health records, and so much more. 
I have spent many hours with and conducted extraordinary 
depositions of abortion providers, some of whom boasted about 
personally performing tens of thousands of abortions each. 
Their callous disregard for the barbarism of their practice and 
the countless precious lives they terminated merely for cash 
was always stunning to me. To so many of these abortion 
providers, women are merely objects and a source of revenue, 
and State health and safety regulations put in place to protect 
those vulnerable women are mere nuisances to be blatantly 
ignored. There is no one in this room that can tell me 
otherwise because I have seen and heard and documented all this 
in court records myself.
    Today we also have indisputable scientific evidence and 
advanced medical technology, like 4-D ultrasounds, that clearly 
affirm the humanity of every unborn child. We know that when a 
human sperm meets and fertilizes a human egg at the moment of 
conception, there becomes an unborn living, genetically 
distinct ,and biologically self-directed human being. That is 
an uncontroversial statement among embryologists and those who 
practice modern medicine generally. In other words, there is no 
such thing as a potential human being. There are only human 
beings from the moment of conception.
    But today we see lawyers and politicians and activists 
straining logic and language past the breaking point for 
political reasons. They do their very best to avoid phrases 
like ``unborn child,'' and try to defend and deny the gruesome 
reality of abortion, which expert witnesses have previous 
described before this very subcommittee as a typical procedure 
in which a living human being is literally and brutally ripped 
to pieces limb by limb. When I served in the Louisiana 
legislature, I authored and passed a ban on the barbaric 
dismemberment abortion procedure in my State. Of course, the 
abortion lobby immediately challenged it in Court.
    Over the past several months, we have all witnessed 
liberals in high political office move aggressively to further 
expand abortion rights, even after the point when an unborn 
child can clearly live outside the womb on its own. The United 
States, by the way, you should know, is one of only seven 
Nations, including North Korea and China, that allow elective 
abortions after 20 weeks, a practice that kills thousands of 
innocent babies every year. New York's Reproductive Health Act 
allows all abortions up to 24 weeks and expanded access for 
later abortions. There is proposed legislation in Virginia, as 
we all now know, that the bill sponsor said would allow an 
abortion even during labor, and Virginia Governor Ralph Northam 
infamously endorsed allowing physicians and mothers to let 
children die in some circumstances.
    When Senate Republicans in this Congress pressed for a vote 
on the Born Alive Abortion Survivors Protection Act, Federal 
legislation that the House has passed in previous years that 
would simply require doctors to provide medical care to babies 
born alive after failed abortion procedures, incredibly 45 
Senate Democrats voted to block its further consideration and 
passage in the Senate. I stood in the back of the Senate 
chamber that night with dozens of our Republican colleagues, 
and we could not believe what we were watching.
    Mr. Chairman, this hearing is entitled ``Threats to 
Reproductive Rights in America,'' but rights must be 
accompanied by responsibilities. In this case, that 
responsibility includes our duty to protect unborn human 
beings. As the Declaration acknowledges, this is the first and 
most fundamental obligation of any civilized people.
    My own mother had just turned 17 when she and my father 
decided to choose life and allow me into the world, and I am so 
grateful that they did. Countless millions of young women have 
made that same blessed choice, and their children are equally 
thankful. For women in vulnerable situations who have made the 
opposite decision and lived to regret it, I just want to say 
personally that you, too, are valued and loved, and that the 
Creator, Who gave us our inalienable rights, is so gracious 
that He offers hope, forgiveness, and redemption to every 
single one of us.
    I look forward to hearing from all of our witnesses here 
today, and we thank you for your time. Mr. Chairman, I would 
ask unanimous consent that the full committee members, Mrs. 
Roby and Mrs. Lesko, be allowed to sit on our subcommittee 
today.
    Mr. Cohen. Without objection, that will be done.
    Mr. Johnson of Louisiana. Thank you. I yield back.
    Mr. Cohen. I want to thank the ranking member for his 
statement. His positions are different from mine, but they are 
heartfelt and they are sincere. And another member who has 
heartfelt and sincere opinions at least is Mr. Judy Chu of 
California. She is here, and I want to recognize her for her 
attendance and her support.
    And now I want to recognize the chairman of the full 
committee, one of the leading voices for many, many years for 
women's rights and choice and the Constitution, the chairman of 
the full committee, the gentleman from New York, Mr. Nadler, 
for his opening statement.
    Chairman Nadler. Thank you, Chairman Cohen, for convening 
this hearing to address the ongoing assault against women's 
reproductive rights that we are witnessing across the Nation. 
This country has reached a crisis point for women's 
constitutional rights to control their own bodies and their own 
reproductive choices. States have passed unconstitutional bill 
after unconstitutional bill, imposing new extreme restrictions 
on abortion, setting the most direct challenge to Roe v. Wade 
we have seen in decades.
    In the month of May alone, Alabama outlawed abortion 
outright, making no exceptions even in cases of rape or incest. 
Georgia and Louisiana effectively outlawed abortion at just 6 
weeks into a pregnancy, and Missouri outlawed abortion just 8 
weeks into a pregnancy. These laws would in many instances ban 
abortions before women even know they are pregnant. Meanwhile, 
the new conservative majority in the Supreme Court upheld 
portions of an extreme anti-abortion law from Indiana, and the 
last abortion clinic in Missouri came to the brink of being 
forced to close its doors after the State refused to reissue 
its license. Had the Court not intervened, Missouri would have 
been the first State, but surely not the last, without a single 
abortion clinic.
    Let me add a word here about some of the rhetoric we have 
heard already today. The rhetoric from the ranking member of 
the subcommittee is heartfelt and sincere. It is also arrogant 
in that it seeks to impose his and certain other people's moral 
commitments on people who don't share those moral opinions. The 
power of the State should not be used by one segment of society 
to impose its moral or religious beliefs on another segment of 
society . Political power should not be fought over as to who 
can control other people's religious and moral convictions and 
the actions stemming therefrom. That is the fundamental 
question in this whole fight.
    After decades of chipping away at the right to an abortion, 
States now realize that the new conservative majority on the 
Supreme Court presents an opportunity either to overturn Roe 
completely or to so radically undermine the right to an 
abortion as to render it essentially meaningless. But the need 
for a safe, legal abortion will never be meaningless. The right 
to have an abortion is fundamental to women's equality, 
autonomy, and personal liberty. Making decisions about when and 
how to start a family is essential women's lives and is their 
decisions, not Congress', not some state legislatures.
    As the Supreme Court put it 27 years ago when it upheld Roe 
after nearly 2 decades of challenges, ``The ability of women to 
participate equally in the economic and social life of the 
Nation has been facilitated by their ability to control their 
reproductive lives.'' We will not go backward. If women cannot 
make decisions about their reproductive health, they cannot 
make decisions about starting a career, going to school, 
opening a business, and planning their lives. When you restrict 
access to abortion, you strip women of the fundamental freedom 
to live life on their own terms.
    The last few weeks have seen an all-out frontal attack on 
the right of every woman in this country to access abortion, 
but this fight is not new, and these laws have not come out of 
nowhere. The bans and extreme restrictions and enactments in 
States like Alabama, Georgia, and Louisiana, as well as in many 
others, represent some of the most extreme legislation coming 
from the States. But over the last decade, State legislatures 
have passed hundreds of bills designed to block women from 
accessing care and for making their own choices. These laws 
impose medically unnecessary regulations on doctors and on 
clinics, right down to the clinics' physical dimensions. Some 
States have even gone so far as to require women who receive 
abortions by taking a pill rather than through surgery, to take 
that pill inside a clinic that must meet the standards of a 
full surgical facility.
    Under the disingenuous claim that these types of laws 
protect women's health, these States are deliberately 
attempting to put abortion out of reach, particularly for low-
income women and women of color. The result is predictable. 
Many women will get abortions, illegal abortions, medically 
unsafe abortions, and the death rate will go up. These laws set 
arbitrary and unnecessary waiting periods that force women to 
take extra time off to work and delay care. They require 
unnecessary tests and biased counseling that do nothing but 
drive up the cost of abortion care. They set arbitrary 
regulations for providers that are designed solely to force 
clinics to close. And, most egregiously, they are designed to 
intimidate and shame women for making the constitutionally-
protected choice to have an abortion.
    And this is not only happening in the States. Here in the 
United States Congress, the Republican-controlled Senate is 
considered a ban on abortion after 20 weeks, a bill that has no 
basis in science and is prima facie unconstitutional. 
Meanwhile, the current Administration has taken every 
opportunity to undermine the right to access abortion and even 
contraception. It seems every other week the Administration 
nominates a new-anti-choice Federal judge or official, 
promulgates yet another rule undermining access to birth 
control or ending unbiased family planning services, and 
announces yet another new policy to protect those who 
discriminate against patients seeking an abortion rather than 
protecting the patients themselves.
    Enough is enough. Congress must now stand up with women and 
men around the country to say we will not turn back the clock 
on women's constitutional rights and women's autonomy. It is my 
hope that today's hearing is Congress' first step to shoring up 
the right to abortion across this country through legislation 
like Representative Judy Chu's Women's Health Protection Act, 
which would put an end to States banning or otherwise limiting 
access to abortion, and Representative Barbara Lee's Each Woman 
Act, which would end abortion coverage bans, or other 
legislative initiatives. We must act to ensure that every 
woman, regardless of State, income, race, or any other factor, 
retains her constitutional right to make her own choice and to 
access abortion. Women must have the freedom to make decisions 
about their lives without anyone questioning their intellect, 
their morals, or their honesty.
    I stand with the members of the committee and millions of 
women and men around this country ready to fight for their 
freedom. I yield back my time.
    Mr. Cohen. Thank you, Mr. Chair. Mr. Collins is at the end 
of the table. He is the ranking member of the committee, and he 
is now recognized for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman. I do appreciate that. 
The title of this hearing is ``Threats to Reproductive Rights 
in America.'' The rights mentioned in the title refer to the 
Supreme Court's 1973 decision in Roe v. Wade. As members of the 
Judiciary Committee, it is appropriate to examine why the test 
of time has exposed Roe as a failure in the viable judicial 
precedent. As mothers, fathers, sisters, brothers, and friends, 
it is necessary to consider why Roe is a failure of compassion 
for both women and children.
    While Roe asserts a woman's right to privacy, anchors her 
right to abortion, abortion destroys the right to life along 
with liberty, the pursuit of happiness, and all other 
constitutional rights of the children it kills. It is 
impossible to imagine the framers intending the right of 
privacy to eclipse one of the self-evident, unalienable rights 
that motivated the birth of our Nation.
    Contending an unborn child has no life to lose becomes 
impossible when we reflect, even momentarily, on what an 
abortion entails, and I am grateful for our witnesses today who 
are here to look at the lives abortions would have snuffed out. 
These witnesses are not alone in recognize the humanity of an 
unborn child. In her dissenting opinion in Gonzales v. Carhart, 
Justice Ginsburg argued that ``Compared to a partial birth 
abortion, the common dismemberment abortion method could have 
equally been characterized as brutal, involving, as it does, 
tearing apart a fetus and ripping off his limbs.''
    Let us then be honest. Let us not speak of abortion as a 
victimless crime. At best, abortion is aimed at one person's 
suffering at the expense of another person's existence. We must 
cultivate compassion and practical support for women who find 
themselves pregnant under difficult or oppressive 
circumstances, and we must protect the most defenseless humans 
among us, those living in the womb. One person's reproductive 
right cannot outweigh another person's right to live.
    Justice Ginsburg also took issue with Roe on legal grounds. 
As a law professor, she wrote ``Roe, I believe, would have been 
more acceptable as a judicial decision if it had not gone 
beyond the ruling of the statute before the Court.'' Heavy-
handed judicial intervention was difficult to justify. Other 
pro-choice legal experts have also voiced concerns with the 
foundation of this decision. Edward Lazarus, a former clerk to 
Justice Blackmun, who wrote the majority opinion in Roe, said, 
``As a matter of constitutional interpretation and judicial 
method, Roe borders on the indefensible. I say this as someone 
who is utterly committed to the right to choose. The problem is 
that Roe has little connection to the constitutional right it 
purportedly interpreted. A constitutional right to privacy 
broad enough to include abortion has no meaningful foundation 
in the constitutional text, history, or precedent.'' Mr. 
Lazarus went on to say, ``As a matter of constitutional 
interpretation, even most liberals, even if you administer 
truth serum, will tell you it is basically indefensible.''
    Jeffrey Rosen, formerly of the New Republic and currently 
the president of the National Constitution Center in 
Philadelphia, wrote, ``Thirty years after Roe, the finest 
constitutional minds in the country still have not been able to 
produce a constitutional justification for striking down 
restrictions on early term abortions that are substantially 
more convincing than Justice Harry Blackmun's famously artless 
opinion itself. As a result the pro-choice majority asks 
nominees to swear allegiance to the decision without being able 
to identify an intelligible principle to support it.'' Kermit 
Roosevelt, a law professor at Penn Law School, said, ``It is 
time to admit in public that, as an example of practice of 
constitutional opinion writing, Roe is a serious 
disappointment. As a constitutional argument, Roe is barely 
coherent. The Court pulled its fundamental right to choose more 
or less from the Constitution either.''
    As a result of Roe's lack of legal justification, the 
Supreme Court has since limited its effect. 1992's Planned 
Parenthood v. Casey permitted States to regulate abortions in 
the first trimester or in any State before fetal viability, 
provided that they do not pose an undue burden on a woman's 
right to abortion. In 2003, Congress banned partial birth 
abortions, which none other than Justice Ginsburg had called 
brutal. In a partial birth abortion, a living baby was 
delivered feet first, skull crushed before its chin clears the 
uterus, almost before live birth is complete.
    2007, the Supreme Court upheld the Federal ban which 
applied at any point during pregnancy in Gonzales v. Carhart, 
ruling the Federal law did not impose an undue burden on a 
woman's right to an abortion. Justice Kennedy's majority 
opinion noted the law expresses respect for the dignity of 
human life and affirmed the government's interest in protecting 
the medical profession's integrity. He wrote, ``The government 
may use its voice and its regulatory authority to show its 
profound respect for the life within the woman.'' Mr. Chairman, 
the decade since Roe v. Wade has repeatedly delivered legal 
decisions making it clear any threat to Roe v. Wade is posed by 
illogical majority opinion.
    Before I finish, however, I will have to take exception 
with my chairman of the full committee. To call the ranking 
member of this subcommittee arrogant for expressing his 
personal beliefs while at the same time sitting hypocritically 
stating your own beliefs from a belief that would assume comes 
from a moral or civic background is the height of hypocrisy. At 
this point in time, we can disagree, but at least if we are 
going to call it, call the balls and strikes the same way. With 
that, I yield back.
    Mr. Cohen. Thank you, Mr. Collins. We welcome our witnesses 
and thank them for participating in today's hearing. Please 
note that your written statement will be entered into the 
record in its entirety. Accordingly, I ask you to summarize 
your statement and your testimony in 5 minutes. You have a 
lighting system in front of you. The green light means you are 
going, the yellow light means you have 1 minute left, and the 
red light means over. Stay within that limit. You have got 
those lights.
    Before proceeding, I would remind each of you that all of 
your written and oral statements made to this subcommittee in 
connection with this hearing are subject to penalty of perjury 
pursuant to the U.S.C. 18-1001 that could result in the 
imposition of fine or imprisonment up to 5 years or both.
    Our first witness is Ms. Melissa Murray. She is a professor 
of law and co-director of the Birnbaum Women's Leadership 
Network at New York University School of Law, where she teaches 
con law, family law, criminal law, reproductive rights, and 
justice, among other courses. Her publications appear or are 
forthcoming in the California Law Review, the Columbia Law 
Review, the Harvard Law Review, the Michigan Law Review, the 
Penn Law Review, and Yale Law Journal, and the Virginia Law 
Review. I don't see how you have time to teach all those 
courses.
    She is an author of Cases on Reproductive Rights and 
Justice, the first case book to cover the field of reproductive 
rights and justice. And prior to joining the NYU faculty, she 
was on the faculty at the University of California-Berkeley 
School of Law and served as an interim dean there. Professor 
Murray received her J.D. from Yale. She is a noted development 
editor of the Yale Law Journal. After law school she clerked 
for the Honorable Sonia Sotomayor, then a judge on the U.S. 
Court of Appeals for the U.S. District Court for the District 
of Connecticut.
    She received her undergraduate degree from the basketball 
powerhouse, University of Virginia, and she is recognized now 
for 5 minutes.

 STATEMENTS OF MELISSA MURRAY, ESQUIRE, PROFESSOR OF LAW, NEW 
    YORK UNIVERSITY SCHOOL OF LAW, NEW YORK, NEW YORK; BUSY 
    PHILIPPS, ACTOR AND ADVOCATE, OAK PARK, ILLINOIS; OWEN 
PHILLIPS, M.D., F.A.C.O.G., THE UNIVERSITY OF TENNESSEE HEALTH 
    SCIENCE CENTER, MEMPHIS, TENNESSEE; CHRISTINA BENNETT, 
   COMMUNICATIONS DIRECTOR, FAMILY INSTITUTE OF CONNECTICUT, 
 HARTFORD, CONNECTICUT; MELISSA OHDEN, KANSAS CITY, MISSOURI; 
 JENNIFER DALVEN, DIRECTOR, ACLU REPRODUCTIVE FREEDOM PROJECT, 
 NEW YORK, NEW YORK; YASHICA ROBINSON, M.D., MEDICAL DIRECTOR, 
     ALABAMA WOMEN'S CENTER FOR REPRODUCTIVE ALTERNATIVES, 
 HUNTSVILLE, ALABAMA; AND H.K. GRAY, ACTIVIST, YOUTH TESTIFY, 
                    DALLAS-FORT WORTH, TEXAS

                  STATEMENT OF MELISSA MURRAY

    Ms. Murray. Thank you very much for the opportunity to 
appear before you in these hearings on threats to reproductive 
rights in United States. I am Melissa Murray, a professor of 
law at New York University School of Law. I will not recount my 
credentials as Mr. Cohen is the best PR man that I could have 
on this subject. [Laughter.]
    So let me get right to it. In 1973 in Roe v. Wade, the 
United States Supreme Court recognized that the Fourteenth 
Amendment's guarantee of liberty protects a woman's right to 
determine whether to bear or beget a child. Since then, the 
United States Supreme Court has consistently affirmed a woman's 
right to choose an abortion as an essential aspect of the 
Constitution's guarantees of liberty and equality. In so doing, 
the Court has held that States may not restrict abortion in 
ways that are unduly burdensome. More precisely, States may not 
enact legislation that has the purpose or effect of placing a 
substantial obstacle in the path of a woman seeking an 
abortion.
    And indeed, as recently as 2016, the Court in Whole Women's 
Health v. Hellerstedt reiterated this commitment to upholding 
abortion rights. There, the Court struck down two Texas laws 
and specifically noted that the undue burden standard was not a 
permissive endorsement of the State's purported rationales for 
regulating abortion. Instead, reviewing courts are obliged to 
review the State's purported justifications and determine 
independently if the challenged restrictions are appropriate 
measures to achieve the desired legislative ends.
    Still, despite these longstanding precedents, State 
legislatures have continued to test the Constitution's limits 
by enacting increasingly restrictive abortion laws. These laws 
make abortion less accessible and more costly. They purport to 
promote and protect women's health, but, in fact, these laws 
are part of a larger effort to legislate abortion out of 
existence through piecemeal attacks.
    Recent changes in the composition of the U.S. Supreme Court 
and the lower Federal courts have further emboldened those 
seeking to limit a woman's right to choose an abortion. In the 
last year, efforts to restrict abortion have taken on a more 
aggressive and extreme posture, flouting the limits that the 
Supreme Court has consistently recognized. Those responsible 
for these laws have made their intentions clear. They are no 
longer content to chip away at the abortion right through 
piecemeal legislation, and instead these more recent laws are 
an obvious provocation designed to relitigate and ultimately to 
overturn Roe v. Wade.
    The prospect of overturning Roe v. Wade is the most obvious 
threat to reproductive rights, but it is not the only threat, 
nor is it even the most immediate threat. Even if Roe v. Wade 
is not overturned, there are a number of cases currently 
pending in the pipeline to the Supreme Court that concern 
access to abortion. The law challenges in these cases do not 
challenge Roe directly, but rather seek to strangle access to 
abortion, putting this fundamental right out of reach. They are 
part of this well-worn strategy to dismantle abortion rights 
through a death by a thousand cuts.
    If these laws are upheld, whether by the Supreme Court or 
the lower Federal courts, their impact will be profound, 
particularly for our most underserved communities. These 
communities include individuals struggling to make ends meet, 
women of color, particularly African-American, Latinx, Asian-
American and Pacific Islander and native women, rural women, 
immigrant women, individuals in the LGBTQ community, parents 
who already have children, and young people. These 
constituencies already face enormous barriers to obtaining 
reproductive care, basic healthcare, and economic security. 
Threats to abortion access further exacerbate these pressures.
    Barriers to healthcare, including reproductive care, go 
hand-in-hand with economic insecurity. The affordable housing 
crisis, food insecurity, a lack of clean water, the lack of 
affordable childcare, the wage gap, which is more pronounced 
for women of color, the lack of paid family leave, a stagnant 
minimum wage, all of these issues lead to and compound economic 
insecurity for underserved communities across this country. 
These barriers have only increased under this presidential 
Administration.
    For all of these reasons, I urge this subcommittee to keep 
these urgent threats and these underserved constituencies in 
mind as you consider ways to support and protect the 
constitutional right to abortion. Thank you.
    [The statement of Ms. Murray follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Cohen. Thank you, Professor. Our next witness is Ms. 
Busy Philipps. She is a best-selling author, an actress, a 
writer, and a host of a late-night talk show. She has appeared 
in a number of movies and television shows. Last month she 
revealed in her talk show that she had had an abortion when she 
was a teenager. She has been a vocal advocate for abortion 
rights, a brave lady, and we recognize her for 5 minutes.

                   STATEMENT OF BUSY PHILIPPS

    Ms. Philipps. Chairman Cohen, Ranking Member Johnson, 
members of the subcommittee, thank you for having this 
important conversation and for inviting me to be a part of it. 
My name is Busy Philipps. I am many things. I am a mother of 
two wonderful girls, age 10 and 5. I am a professional actor 
for over 20 years. I am a New York Times best-selling author. I 
am a wife. I am a daughter. I am a talk show host and a 
volunteer for various children's charities and my kids' 
schools. I am a sister, and I am a best friend. I am also the 1 
in 4 women in this country who have an abortion.
    After the governor of Georgia signed Bill H.B. 481, which 
would ban abortion at 6 weeks, before most women know they are 
pregnant, I felt compelled to share my own story on my 
televisions and online. I had an abortion when I was 15 years 
old in my home State of Arizona in 1994. It was not a decision 
that I made lightly, but I have never for one moment doubted 
that it was the right decision for me. But so much has changed 
in Arizona and many other States since then. If I were that 
same 15-year-old in Arizona today, legally I would have to get 
parental consent. I would be forced to undergo a medically 
unnecessary ultrasound, go to a State-mandated in-person 
counseling session designed solely to shame me into changing my 
mind, and then take a State-mandated 24-hour timeout to make 
sure I really know what I wanted. And finally, I would be 
forced to give the State a reason why. Well, here is mine. It 
is my body, not the State's.
    Women and their doctors are the ones that are in the best 
position to make informed decisions about what is best for 
them, no one else. Since I shared my story and I called on 
others to do so using the hashtag, #YouKnowMe, on social media, 
the response have been overwhelming. I have heard from 
thousands with their own stories, women who were raped, people 
who very much wanted children and had severe, severe fetal 
anomalies, women who were in an abusive relationship, people 
whose birth control failed or who simply were not ready. I also 
heard from many women who had abortions before abortion was 
legal in 1973, putting themselves in dangerous circumstances.
    No bill that criminalizes abortion will stop from making 
this incredibly painful decision. These bans will not stop 
abortions from happening, but they will drive women and girls 
and people into the shadows, which is what this has always been 
about, shaming and controlling women's bodies. In the week 
after I shared my story on my show, women were coming up to me 
in the street, in the supermarket, at my gym, with tears in 
their eyes thanking me for my bravery. But the word ``brave'' 
didn't sit right with me. Why is it brave to speak to an 
experience that millions of people around the world throughout 
history have gone through? And then I realized it is considered 
brave because as women, we have been taught to feel shame about 
our bodies since birth. In my life, I have had many medical 
procedures, but no one has ever called me brave for talking 
about them. Abortion is healthcare and should not be treated as 
different from any other healthcare.
    I am so sad that we have to sit here in front of a row of 
politicians and give deeply personal statements because the why 
doesn't matter. It should not matter. I am a human being that 
deserves autonomy in this country that calls itself free, and 
choices that a human being makes about their own bodies should 
not be legislated by strangers who can't possibly know or 
understand each individual's circumstances or beliefs. I am 
here today because I stand by the decision that I made when I 
was 15 years old. I am here today because my platform has 
allowed me to connect with thousands and thousands of people 
around the country that you represent, who have made the same 
choice I have made, but who will not all get the same chance to 
talk to you directly.
    I am here today to help de-stigmatize a legitimate medical 
procedure and continue to encourage women not to allow 
themselves to be shamed for their choices. And finally, I am 
here today for my two little girls, Birdie and Cricket. My 
dream for them is that they will live in a world in which women 
are truly equal with complete control over their own 
reproductive health. That is the dream I hold for all people, 
regardless of their privilege or parents or what State they 
live in.
    That dream is slipping further and further from reality 
with every ban passed. I hope that you, our elected leaders, 
can help us reverse the tide. Thank you. I look forward to 
today's discussion.
    [The statement of Ms. Philipps follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Cohen. Thank you very much. Our next witness is Dr. 
Owen Phillips, a friend from Memphis, Tennessee, who has come 
to visit me on many occasions about these issues and others. 
She is a professor at the University of Tennessee Health 
Science Center in Memphis. She has held that position since 
2002. She is a fellow in the American College of Obstetricians 
and Gynecologist and Board certified by the American Board of 
Obstetrics and Gynecology and the American Board for Medical 
Genetics.
    She received her M.D. from the University of Mississippi 
School of Medicine in 1980. She did her residency in obstetrics 
and gynecology at the University of Mississippi Medical School, 
and her fellowship in reproductive genetics at the University 
of Tennessee in Memphis. She has also received a master's in 
public health degree, summa cum laude from the University of 
Memphis. She received her B.S. in chemistry from Millsaps.
    Welcome. You are recognized for 5 minutes.

          STATEMENT OF OWEN PHILLIPS, M.D., F.A.C.O.G.

    Dr. Phillips. Thank you, Chairman Cohen. Chairman Nadler, 
Ranking Member Johnson, and members of the committee, thank you 
again for inviting me to speak with this subcommittee today. My 
name is Owen Phillips. I am an obstetrician/gynecologist from 
Memphis, Tennessee. I was asked to testify as to the barriers 
to care my patients experience because of existing restrictive 
abortion laws, and to predict what further challenges might 
arise if even more restrictive abortion regulations become law.
    The first I can easily attest to. Tennessee has several 
laws that were passed under the guise of making abortion safer. 
None were backed by scientific evidence and all have fulfilled 
their real purpose: making a safe and legal procedure harder to 
obtain. The 48-hour wait period requires many women to travel 
long distances twice to the clinics for face-to-face 
consenting, adversely affecting their job and childcare. The 
requirement that physicians provide abortion care have hospital 
privileges has prevented many experienced doctors from caring 
for their patients.
    My own hospital has bowed to perceived political pressure 
and severely limits the indication for abortions. None of these 
restrictions will likely prevent women from attaining the 
abortion they seek. They just make it harder for women to 
receive timely, efficient, and equitable abortion services.
    To answer the second question, what effects would more 
restrictive laws have, is harder to answer. I have been 
practicing since the 1980s. I am not old enough to have 
personally witnessed the tragedies my physician teacher 
recalled prior to the Roe decision. No one knows what the 
consequences will be because almost all doctors practicing now 
have assumed that safe and legal abortion would always be an 
option for their patients.
    Nevertheless, we physicians are fearful. Commonly a 
diagnosis of preeclampsia is made in our unit. By definition, 
this diagnosis is made after 20 weeks. This is a life-
threatening condition for which the treatment is delivery. 
Abortion is often recommended, and the timing of which is made 
by the doctor with the patient. No politician's opinion should 
be a part of that medical and personal decision making, but 
this is where we seem to be headed. And I agree with the vice 
president of health policy at ACOG, who has opined that one 
contributing factor to the increasing rates of maternal 
mortality has been the favoring of fetal wellbeing over that of 
the patient.
    Also typical of my experience is having the heartbreaking 
conversation with a couple that their pregnancy has a lethal 
condition, meaning the baby will die within the first few hours 
or days of life. The couple, after much anguish, may decide to 
have an abortion or may not, but who among us feels they have 
the right to make that decision for them? Not me, but I assume 
people sitting in some State legislatures or maybe even some of 
you feel that you do.
    And it is not just OBGYNs who interface with the issue. The 
oncologist's decision to treat with cancer-curing drugs is 
affected by a woman's pregnancy. The cardiologists have to 
advise women that if they continue their pregnancy, they may or 
will die from their condition. It is a hard decision, but the 
woman may look at the young children she has and ask what is 
the right thing for them. I would never deem myself so arrogant 
to make this decision for a woman, yet politicians all over 
this country have decided that they have the right to do just 
that.
    Is this a religious cause? You know, I understand religious 
conviction. I was raised a Southern Baptist. Was taught to live 
by the Bible's teaching, ``love your neighbor as yourself'' and 
``judge not lest ye be judged.'' But these laws are not about 
love and certainly not about refraining from judging others. 
Where is the ethical and moral high ground in risking a woman's 
life or wellbeing because she cannot make decisions about her 
own body, her family, and her wellbeing, whether or not to have 
a baby, or safely terminate her pregnancy?
    Now, most of my patients may have medical conditions for 
pregnancy termination, but in my experience, every woman who 
makes this decision has a reason. Abortion is a part of 
healthcare and should remain safe, accessible, and legal 
without political interference. I agree with ACOG's 
recommendation that existing restrictive abortion laws should 
``be immediately repealed.'' These laws do not seek to make 
abortion safer. They instead seek to punish the healthcare 
systems and doctors who provide abortion care, and, above all, 
to punish the women who seek abortion services.
    The decision to have an abortion should be a woman's 
decision in consultation with her doctor, period. Thank you.
    [The statement of Dr. Phillips follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Cohen. Thank you very much, Dr. Phillips. Our next 
witness is Christina Bennett. She is the communications 
director of the Family Institute of Connecticut. She has been 
active in the pro-life movement for 15 years. She is a licensed 
Christian minister and has served on prayer missions in a 
number of locations, including Washington, Atlanta, and several 
overseas countries. She has a B.S. in communications from 
Southern Connecticut State University.
    Ms. Bennett, you are recognized for 5 minutes.

                 STATEMENT OF CHRISTINA BENNETT

    Ms. Bennett. Thank you, Chairman Nadler, Chairman Cohen, 
Ranking Member Johnson, and members of the committee. I am 
grateful for the opportunity to share my story with you today.
    In 1981, my mother scheduled to abort me at Mount Sinai 
Hospital in Hartford, Connecticut. She was pressured by my 
father to abort and rejected by a mentor in her church who told 
her she wasn't welcome anymore because she was pregnant out of 
wedlock. She met with a counselor at the hospital who assured 
her she was making the right decision, but didn't offer 
counseling on available alternatives. A black elderly janitor 
approached my mother after seeing her crying in the hospital 
hallway. She asked her if she wanted to have her baby. My 
mother said yes. She told her that God would give her the 
strength to have me.
    When she went to leave, my mother was called into the 
doctor's office, and she saw that he hadn't cleaned up the 
blood from the last abortion. She was disgusted and told him 
she wanted to keep me. He insisted that she go through with the 
abortion and said, ``You have already paid for this. You are 
just nervous.'' She repeated, ``I want my baby,'' and he yelled 
at her saying, ``Do not leave this room.'' She felt his anger 
came from fear of losing her business and those that could 
possibly follow her, yet with courage she walked out.
    Children conceived less than a decade prior to my birth 
never experienced the threat of death through legalized 
abortion. It is easy for people to say, ``Well, I am glad your 
mother had a choice,'' but a statement like that devalues my 
existence and the reality of what that choice would have done 
to me. Human life should not be weighed in the balance of 
whether or not they are wanted or measured in terms of 
circumstances or convenience. I deserved legal protection and a 
right to life.
    My mother's experience is similar to the experiences I have 
heard from women throughout this country, women who faced the 
same rejection, pressure, lack of counseling, lack of support, 
and disgusting facility conditions. My desire to assist women 
and children led me to work for years at a nonprofit pregnancy 
resource center, and there I witnessed the power of hope and 
the ways in which love and practical support can strengthen 
women and their families.
    Two years ago I had a profound experience while visiting 
the National Museum of African-American History. I was reminded 
of the ways black Americans were denied the right to equal 
protection and due process, treated as property, and 
dehumanized because of the color of our skin. The museum 
memorialized the many ways black Americans have been unjustly 
targeted and killed for centuries. And while I rejoice over the 
progress that we have made as people of color, an ache remains 
in my heart because of the denial of equal protection and due 
process to another class of people: the baby in the womb.
    The sacrifices my ancestors suffered to achieve the civil 
rights I enjoy today are not able to protect future generations 
because of legalized abortion. I am burdened that the 
Fourteenth Amendment, which gave us liberty, was unjustly used 
to invent a supposed right to destroy a human life. Sojourner 
Truth in her day said, ``Am I not a woman?,'' and in mine I 
say, ``Am I not a person?'' Abortion is not a victimless act. 
We just can't hear the voices of those who have been silenced 
and discarded.
    Roe v. Wade rendered 60 million lives unworthy of legal 
protection and had led to the deaths of 20 million black babies 
since 1973. In the dark history of Planned Parenthood, founder 
Margaret Sanger's philosophy of eugenics was recently 
documented by Supreme Court Justice Thomas in his concurring 
opinion about Fox v. Planned Parenthood. And today, an 
increasing number of black Americans recognize this eugenic 
population control philosophy that is having a genocidal 
impact.
    Seventy-eight percent of Planned Parenthood surgical 
facilities are located in black and Latino neighborhoods, and 
black women, such as Cree Erwin, Lakisha Wilson, and Tonya 
Reaves, have lost their lives at the hand of an abortion 
industry that offered them substandard medical care. Others 
have left by ambulance, suffered botched procedures, and been 
left with physical and emotional scars. And we are tired of the 
targeting and the lies that abortion is an answer to our 
challenges.
    As a pro-life feminist, I support body autonomy, but 
abortion impacts two bodies. I am a unique individual, and just 
as my heart is beating today, it was beating inside of my 
mother's body. I was not just a part of her body. And 
liberation never comes through oppressing other human beings. 
Roe v. Wade was built on lies that Norma Mccorvey spent her 
entire life trying to correct. We can love both women and 
children and strive for a society that treats us all with the 
dignity we deserve, and this is true empowerment.
    [The statement of Ms. Bennett follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Cohen. Thank you, Ms. Bennett.
    Ms. Bennett. You are welcome.
    Mr. Cohen. Ms. Melissa Ohden is an anti-abortion activist. 
In 2012, she founded the Abortion Survivors Network and has 
previously testified before the U.S. House of Representatives 
and the U.S. Senate. She has worked as a speaker for Feminists 
for Life. You are recognized for 5 minutes.

                   STATEMENT OF MELISSA OHDEN

    Ms. Ohden. Chairman Cohen, Chairman Nadler, Ranking Member 
Johnson, members of the committee, I just want to thank you for 
inviting me to this hearing.
    As a now famous saying goes, ``Women's rights are human 
rights.'' I am here today to give a face and a voice to women 
whose rights are not just being threatened, but have been under 
attack for the past 46 years in our country, and are clearly 
being even more heavily threatened as abortions throughout all 
9 months of pregnancy with no restriction are being introduced 
and celebrated in States like New York, Illinois, and now 
Nevada.
    Today you have heard countless stories already about how 
abortion is a difficult, yet necessary, decision, how every 
woman has the fundamental right to abortion. Every story is 
important. Every experience deserves to be heard. However, when 
we hear the stories about abortion, this narrative is woefully 
one-sided. Our culture has been inundated with messaging in 
which abortion controls the narrative, yet largely ignored in 
this abortion narrative that is woven so skillfully throughout 
our culture, behind even the words in the title of this 
hearing, ``Reproductive Rights,'' are stories buried beneath 
the narrative of abortion that has been sewn since Roe v. Wade.
    Is there space for stories like mine, women who are alive 
today after surviving failed abortion procedures? For stories 
like my biological mother's, who have been coerced or forced 
into an abortion? Do we ever create space for the stories of 
women who regret their abortions? The most important stories, 
though, are those that you will likely never hear, the stories 
of the little girls who will never live outside of the womb. In 
all of this discussion about women's rights, some lose sight of 
the fact that without the right to life, there are no other 
rights. This is the greatest human rights issue we are facing 
as a country.
    And I am here to tell you that in August of 1977, that is 
when the attack on my human rights began. My biological mother 
as a 19-year-old college student had a saline infusion abortion 
forced upon her by her own mother, a prominent nurse in their 
community, with the help of her friend and colleague, the local 
abortionist, Dr. Kelberg. That abortion procedure involved 
injecting a toxic salt solution into the amniotic fluid 
surrounding me in the womb. It was meant to poison and scald me 
to death. I soaked in that toxic salt solution over a 5-day 
period as they tried time and time again to induce my birth 
mother's labor with me.
    When I was finally expelled from the womb on that 5th day 
of the abortion procedure, my arrival into this world was not 
so much as a birth, but an accident, a live birth after a 
saline infusion abortion. My medical records actually state a 
saline infusion for an abortion was done, but was unsuccessful. 
This record is available to you to review along with some other 
records that talk about how a complication of my birth mother's 
pregnancy was a saline infusion.
    Despite the arguments being made that people like me don't 
exist or that children aren't left to die after failed 
abortions, I need you to listen to the words of a nurse who 
have been connected with who was there that day. I was 
initially laid aside after my grandmother instructed the nurses 
to leave me to die, and arguments ensued about whether would be 
provided medical care. In the words of Nurse Jan, who received 
me in the NICU that day, a tall, blonde nurse courageously 
rushed me off, shouting out, ``She just kept gasping for 
breath. And so I couldn't just leave her there to die.''
    My medical records state that when I was delivered alive in 
that abortion procedure, I suffered from severe respiratory 
problems, jaundice, seizures. I weighed a little less than 3 
pounds. I was 2 pounds, 14 ounces, which led a neonatologist to 
remark in my records that I was approximately 31 weeks 
gestation as opposed to the 18 to 20 weeks that the abortionist 
had written on my medical records. It is easy to talk about 
women's reproductive rights until you recognize that without 
first the right to life, there are no other rights. How do you 
reconcile my rights as a woman, who survived a failed abortion, 
with what is being discussed here today?
    The abortion industry talks in abstract and gray when it 
comes to the science of when life begins and what abortion 
does, but the reality is much clearer. I am alive today because 
someone else's reproductive right failed to end my life, as are 
the 287 abortion survivors I have connected with through my 
work in the Abortion Survivors Network. One hundred and eighty-
four of them are female. There is something wrong when 
someone's right results in another person's death. There is 
something deeply disturbing about the reality in our world that 
I have a right to an abortion, but I had never the simple right 
to live.
    As you examine the so-called threat to women's reproductive 
rights, I would ask you to look behind the language and see 
stories like mine that are hidden, that might seem inconvenient 
or rare, and consider there is more to this discussion. And 
there is more to be done to protect our most vulnerable 
constituents and meet the needs of women and families in our 
communities in a way that supports life at all stages of 
development and in all circumstances, not ends it.
    [The statement of Ms. Ohden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Cohen. Thank you. Ms. Jennifer Dalven is the director 
of the American Civil Liberties Union Reproductive Freedom 
Project. In that role, she oversees and directs the ACLU's 
litigation, State advocacy, and communications work on issues 
affecting access to reproductive health services. Prior to that 
she was on the staff with the ACLU for more than 10 years and 
then in private practice. She graduated magna cum laude from 
the NYU School of Law and served as law clerk for the Honorable 
Pierre Leval of the U.S. Court of Appeals for the Second 
Circuit.
    You are recognized for 5 minutes.

                  STATEMENT OF JENNIFER DALVEN

    Ms. Dalven. Chairman Cohen, Chairman Nadler, Ranking Member 
Johnson, and members of the subcommittee, thank you for 
inviting me to testify today. My name is Jennifer Dalven, and I 
am the director of the ACLU's Reproductive Freedom Project.
    I have been litigating abortion cases for more than 2 
decades, and I am here to tell you that today we are facing a 
crisis. Since March, seven States have passed laws banning 
abortion, and make no mistake about it. This has happened 
because President Trump was able to put two new justices on the 
Supreme Court, and abortion opponents believe that this new 
Court will take an extraordinary step of actually taking away 
one of our constitutional rights.
    That is a very real and very frightening possibility, but 
here is the thing. The Court doesn't have to overturn Roe v. 
Wade in order for States to push abortion entirely out of 
reach. That is because these bans are just the culmination of a 
decades-long strategy, a strategy to pile restriction on top of 
restriction in order to make it near impossible for a person to 
get an abortion if they need one.
    Congress started by passing the Hyde Amendment, which bans 
coverage for people insured through Medicaid. Representative 
Hyde openly admitted what his goal was, that it was to prevent 
people with low incomes from being able to get abortion care 
they needed. State legislatures followed suit, and since the 
2010 elections, States have quietly passed 479 medically 
unnecessary restrictions on abortion care.
    Lawyers at the ACLU, Planned Parenthood, and the Center for 
Reproductive Rights are challenging dozens of these 
restrictions in court. And while litigation is a powerful tool, 
it alone cannot stop the avalanche of restrictions. The 
unfortunate truth is that these restrictions have severely 
eroded access to care, so much so that for many today in our 
country, abortion is already more theoretical than real. This 
is particularly true for people with low incomes, people of 
color, immigrants, young people, and LGBTQ people.
    Kentucky is a good example of what is happening around the 
country. In the 1970s, there were 17 places in Kentucky where a 
person could get an abortion if they needed one. Today because 
of hostile State action, there is only one, and Kentucky isn't 
alone. Six States have only a single abortion provider, and 
several more have only two or three. And yet there are efforts 
in Kentucky, Missouri, and other places to shut down even those 
last clinics. Like many others, Kentucky's governor, Governor 
Bevin, has been trying to use bogus health regulations to end 
abortion care in his State, and he would have been successful, 
but the sole clinic, EMW Women's Surgical Center, refused to 
abandon its patients. Instead, the ACLU and EMW rushed to court 
to get an emergency order stopping the governor from shutting 
down the clinic. After trial, the Court found that the 
governor's regulations ``resulted in no benefit to patients.'' 
All they would do is make it impossible for a person to get an 
abortion in the State. But unfortunately, the State appealed, 
and so the clinic's ability to keep caring for patients remains 
in jeopardy.
    Now, this was a prime strategy used before 2019, using 
phony health regulations to prevent people from getting 
abortions. But since Justice Kavanaugh's confirmation, States 
are increasingly dropping the pretense. Now they are making a 
claim to what their goal has been along, which is to ban 
abortion entirely. Now, of course these laws have never been 
motivated by a concern for women or families. If they were, 
Georgia wouldn't have one of the highest maternal mortality 
rates in the country, a rate that is 3 times higher for black 
women than it is for white women. If they were concerned about 
women and children, two-third of Alabama counties would not 
lack a hospital that provides obstetrical care. If they were 
concerned about children, Alabama wouldn't have one of the 
highest infant death rates in the country. But instead of 
addressing these problems, these States are passing blatantly 
unconstitutional abortion bans.
    Now, we must fight those bans and we are, but at the same 
time, States are also continuing to quietly regulate away 
abortion access. It is happening in Missouri, which is on the 
verge of forcing the last clinic in the State to stop providing 
abortion care. It is happening in Louisiana where, unless the 
Supreme Court steps in, there will be only a single doctor left 
in the entire State eligible to provide abortion care. And it 
is happening in Alabama where but for lawsuits brought by the 
ACLU on behalf of doctors, like Dr. Robinson, every single 
clinic in the State would have been forced to close. That is 
why Congress must pass the Women's Health Protection Act. That 
bill would safeguard against not only outright bans, but also 
clinic shutdown laws and other restrictions that prevent people 
from getting care.
    As the mother of two fabulous children, I know that the 
decision about whether to become a parent is one of the most 
important ones we make in our lives. It is the job of our 
government to ensure that we can actually make real decisions, 
whether that is to continue a pregnancy or to end it, in a way 
that is best for ourselves and our families. Thank you.
    [The statement of Ms. Dalven follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Cohen. Thank you. Our next witness is Dr. Yashica 
Robinson, attending physician in the Department of Obstetrics 
and Gynecology at the Alabama Women's Wellness Center of 
Huntsville, Alabama, where she has worked since 2005. She is a 
fellow of the American Congress of Obstetricians and 
Gynecologists and a National Health Service Corps Scholar from 
2000 to 2013. She received her M.D. from Morehouse School of 
Medicine, a recipient of three scholarships. She has a B.A. in 
chemistry, magna cum laude, from Talladega College. She did her 
residency in obstetrics and gynecology at the University of 
Alabama School of Medicine.
    Dr. Robinson, thank you, and you are recognized for five 
minutes.

                 STATEMENT OF YASHICA ROBINSON

    Dr. Robinson. Thank you. Thank you, Chairman Cohen, Ranking 
Member Johnson, and members of the subcommittee. My name is Dr. 
Yashica Robinson. I serve on the board of Physicians for 
Reproductive Health and I am an obstetrician-gynecologist in 
Alabama. I have a busy obstetrics practice where I provide 
prenatal care, deliver babies, and treat mothers after they 
have given birth. I also provide abortion care at Alabama 
Women's Center.
    I provide abortion care because I believe that patients 
deserve the full spectrum of care. I came to this work because 
of my passion for young people that is deeply connected to my 
personal experience as a teen mother. Prior to finishing high 
school I learned that I was pregnant, and as a result of fear 
and lack of resources, by the time I confided in my mother and 
grandmother, I had no choice--I was going to be a mother.
    Becoming a mother as a teenager came with many harsh 
realities. I love my children dearly, but I know that everyone 
should be able to make that decision for themselves. I have 
been in the shoes of many of the young people that I see in my 
clinic, and it is important for them to know that regardless of 
their decision, that I am here to support them.
    Providing abortion care in Alabama is challenging, but it 
is also deeply satisfying. I am proud to provide compassionate, 
quality care when patients enter our doors, but I know all too 
often that getting to our doors comes with many unnecessary 
obstacles. People have to travel long distances to come to our 
clinic. They receive outdated state-mandated information, and 
then they are required to wait an additional 48 hours before I 
can provide them the care they need.
    Low income patients have an exceptionally hard time. These 
obstacles increase the overall cost of care, including costs 
related to transportation, lodging, missing work, and child 
care. I know that patients have slept in their cars overnight 
because they had no other options.
    Alabama also has a 20-week abortion ban, and patients 
needing care after that point have to travel out of state, 
which further increases costs. And young people have to 
navigate an onerous, time-intensive process to have an abortion 
if they cannot involve a parent. I have cared for a 12-year-old 
who faced numerous delays before getting the final judicial 
approval necessary to proceed with the abortion she needed. 
Though I met her in her first trimester of pregnancy, she was 
well into the second trimester and nearly at the legal limit 
for being able to obtain an abortion in the State of Alabama by 
the time she navigated all of these hurdles.
    The near total ban on abortion that recently passed in 
Alabama, H.B. 314, imposes a 99-year prison sentence for a 
physician unless it is agreed that the abortion is needed for 
the necessary for the life or meets an extremely narrow 
exception for the health of the woman. This ban, should it ever 
go into effect, would be disastrous for Alabamians. H.B. 314 is 
blatantly unconstitutional and would force doctors like me to 
choose between what is ethically, medically appropriate care, 
and being criminalized. There is no other area of medicine 
where we have legislation threatening physicians with criminal 
prosecution for simply doing their jobs.
    Alabama is already a state with an unconscionably high 
maternal and infant mortality rate. Nearly two-thirds of 
Alabama counties lack hospitals that offer obstetrical care. 
Moreover, the number of pregnancy-related deaths across the 
country is steadily increasing, and in Alabama, black women are 
nearly five times more likely to die of pregnancy-related 
complications than white women. Without access to safe abortion 
care, maternal mortality rates will rise even more.
    By attempting to criminalize abortion providers we endanger 
women and we harm communities that are already lacking health 
care providers. This law will make doctors' often split-second 
judgment calls potential criminal acts. This lack of autonomy 
may deter new physicians from coming to areas that already have 
a shortage of physicians and may cause others to leave.
    Alabama legislators made it very clear, their ultimate goal 
is to outlaw abortion, period. This is dangerous, as the 
consequences extend far beyond that. It will affect all 
providers who take care of pregnant women, not just abortion 
providers. Women and their doctors need to have access to the 
full spectrum of care as they manage undesired and complicated 
pregnancies. Regardless of how you feel about abortion, we 
cannot tie the hands of health care providers.
    Though H.B. 314 has not taken effect it is negatively 
impacting patients already. I wish that you all could hear how 
worried patients are. One young lady told me of the nightmares 
that she had prior to coming in to the clinic because she felt 
that she would be denied services because of these restrictive 
laws. In addition to legal obstacles, providers and patients 
face constant harassment. To enter the clinic or my obstetrics 
practice, patients have to walk through a line of protestors 
who yell hateful, dehumanizing, sometimes racially charged 
things. The hostility that we endure is completely unacceptable 
and has gotten worse in the past few years. Recently, a 
protestor attempted to run over a volunteer with their vehicle. 
Needless to say, this harassment is unheard of for my 
colleagues who work in other fields of medicine.
    The bottom line is this: abortion is health care. 
Alabamians deserve better. I urge elected officials to show 
empathy for the lived experiences of people who need health 
care, be it abortion, miscarriage management, or prenatal care, 
for they are all connected. Health care should remain patient-
centered, and all medical decisions should remain between a 
patient and her physician, without any political interference.
    Thank you.
    [The statement of Ms. Robinson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
       
    Mr. Cohen. You are welcome. I notice several of you seem 
shocked by the--we are used to it here. It was the ghost of 
Shirley Chisholm expressing her upset about the need for this 
hearing. [Laughter.]
    Mr. Cohen. Now I would like to recognize H.K. Gray, who is 
an activist with Youth Testify, a program for the Advocates for 
Youth and the National Network of Abortion Funds. She wrote an 
opinion piece in Teen Vogue on abortion rights.
    You are recognized for five minutes.

                     STATEMENT OF H.K. GRAY

    Ms. Gray. Good morning and thank you to the chairman and 
ranking member for this opportunity to share my story and bring 
to light the very real ways restrictions to abortion access 
threaten our ability to make autonomous reproductive health 
decisions and raise the families we want.
    My name is HK Gray. I am 18 years old and I came here today 
all the way from Fort Worth, Texas. I am an activist with Youth 
Testify, a leadership program through Advocates for Youth and 
the National Network of Abortion Funds. It is an honor to be 
able to speak before you today.
    I became pregnant for the first time when I was 15 and had 
my daughter shortly after I turned 16. Immediately upon finding 
out I was pregnant, I knew I would continue the pregnancy. 
Despite a bit of preterm labor, my baby arrived right on time. 
She is in her terrible twos now and I love her. I am fortunate 
to have the incredible support of my fiance, but becoming a 
parent has also had challenges, like losing my friends and not 
being able to attend school. I have been on my own for a few 
years now because my father is homeless and my mother was 
incarcerated. They weren't in situation to support me legally, 
financially, or emotionally. I know they love me, but they are 
unable to parent me the way I need them to, and the State 
requires.
    After having my daughter, I tried to get a Paragard IUD, 
but I was unable to because in Texas, in order to get birth 
control, I need my parent's consent, something I couldn't get 
due to my parents' situations. And although my doctor was 
sympathetic, she couldn't legally give it to me.
    A few months later, I became pregnant again, but I 
miscarried. Ten months after giving birth to my daughter, I 
realized I was pregnant for a third time. When I told my 
fiance, we both knew what the other was feeling. We couldn't 
afford a second child, and it was harder when I had to go back 
to work a week after having my daughter because I didn't have 
paid parental leave. Adoption wasn't the right decision for us 
because if I continued the pregnancy I would have wanted to 
parent, and the WIC, SNAP, and Medicaid programs aren't enough 
as it is.
    When I tried to get an abortion, I didn't realize how hard 
it would be. Texas requires parental consent for anyone under 
18 years old. It is not that my parents would have opposed to 
my decision, it is that they weren't physically able to give 
the consent. This was a new concept to me because it is 
something I didn't have to do when I had my daughter. It seemed 
weird to me that I didn't need anyone's permission to become a 
parent, but I needed to prove to the state that, as a parent, I 
was mature enough to not have another child.
    Thankfully, I found Jane's Due Process, an organization 
that helped me find a clinic and connected me to a lawyer who 
would walked me through the judicial bypass process. I had to 
get an ultrasound to take to court and prove how far along I 
was.
    A few weeks later, when I finally went to court, it was a 
long day and honestly it was very hard on me. The judge said 
some hurtful things about me being sexually active, being a 
young parent, and wanting an abortion. I felt shamed no matter 
which decision I made. The judicial bypass process is a burden 
and barrier to abortion access.
    My actual abortion was pretty straightforward. The 
providers were kind and treated me like an adult, and I was 
glad to get back home to care for my daughter. The irony of 
this whole experience is that I could make medical decisions 
for my daughter, but not for myself. When I take my daughter to 
see a doctor, I am treated like an adult, but I couldn't get 
routine care at the dentist or get birth control without my 
parents' permission.
    I believe we need more support in this country for young 
women and transgender people who want to be able to access 
birth control or want to parent, or want an abortion, or like 
me, needed all of those things at different times in my teenage 
years.
    Government restrictions on abortion hurt those of us who 
have fewer resources, or people of color or undocumented or 
living with disabilities or poor or queer. In Texas, the State 
prohibits all types of health insurance from covering abortion 
care and we have to pay out of pocket. I couldn't afford my 
abortion, but thankfully a family member lent me the money.
    Like me, most people seeking abortions are already 
parenting and are balancing paying for child care, food, and 
rent. In Texas, 96 percent of counties do not have abortion 
clinics, impacting nearly half of Texas women. We have to 
figure out how to take time off work or school to travel to get 
an abortion, find some place to stay, and pay for all. We are 
forced to listen to government-mandated, medically inaccurate 
counseling, and wait 24 hours and go to the doctor twice before 
getting an abortion.
    Unlike me, the majority of people who have abortions are 
people of color, and we must respect their decisions. I wish 
there was more support for people of color who are impacted by 
these restriction harder than I am. We need more love and 
compassion for families and young people like me. I had a 
child, I had a miscarriage, and I had an abortion.
    As we say at the National Network of Abortion Funds, 
``Everyone loves someone who had an abortion.'' Thank you for 
your time. I hope my story helps you remember these laws that 
you pass impact your constituents, like me, and your loved ones 
who have had abortions.
    [The statement of Ms. Gray follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Cohen. Thank you, Ms. Gray.
    We will now enter the period of our hearing where each 
member has five minutes to ask questions, and I will begin by 
recognizing myself for five minutes.
    Dr. Phillips, thank you for traveling here from Memphis, 
and away from the land of the best barbecue in the world to 
join us today. You have spoken about how some of Tennessee's 
laws, such as the 48-hour waiting period, make it difficult for 
women to obtain an abortion, particularly those who have to 
travel long distances for multiple visits.
    You have also spoken about how your hospital has bowed to 
local pressure and placed severe limits on access to abortion. 
What are those limits and how have they affected patients in 
your care?
    Dr. Phillips. Thank you. The hospital that I practice in 
has relatively arbitrarily limited abortion to the case of 
rape, incest, and save the life of the mother. The issue is 
that the medical indication of saving the life of the mother is 
one that requires a great number of events to happen to 
actually prove, and to document more than just prove.
    So we have delays. Cases have to be referred to the 
administration to consider. Many times there requires a number 
of medical opinions to be documented, and in the meantime the 
pregnancy is advancing and advancing. And even though first and 
second trimester abortions are safe, certainly safer than 
having a baby, and certainly under these medical circumstances 
safer than having a baby, the delays are heart-wrenching for 
the patient and for their families as they wait. This is one of 
the big issues that we face all the time.
    Mr. Cohen. Ms. Dalven, Dr. Phillips mentioned the three 
exceptions that are generally in the law--rape, incest, or the 
life of the mother. In your knowledge of laws in the United 
States, do most states now see those three exceptions, except 
for these new wave of laws that do not consider those 
exceptions?
    Ms. Dalven. You are absolutely right that many of the new 
State bans lack exceptions for rape and incest. That is 
certainly true and the public is outraged. The public is 
outraged by the bans themselves as they affect all women, and 
that is why we saw people take to the streets in more than 500 
cities and towns around the country, in the middle of the week, 
to express how concerned they were about bans like Alabama's 
and Ohio's and Kentucky's and Georgia's, where we are seeing 
politicians increasingly step away from this old argument that 
they were just trying to protect women's health or just trying 
to ensure that decisions are informed. Now what we are seeing 
is people just taking this decision entirely out of the hands 
of women.
    Mr. Cohen. It is interesting that with the exception of 
Ohio, the states that have been the worst on these laws are the 
same states that had miscegenation laws, the same states that 
made it difficult to vote and were suspect states in the Voting 
Rights Act, and left the country--somewhat unpatriotic of them.
    Professor Murray, you have explained in your testimony that 
the reasoning Roe v. Wade was part of a long line of cases 
recognizing a right to privacy and a right to make one's own 
personal decision in certain areas of life, including people's 
choice of who they might want to marry, same sex, et cetera, 
and the rights of parents to direct the upbringing of their 
children. If Roe were overturned, in what ways could those 
other rights be threatened?
    Ms. Murray. Chairman Cohen, you are absolutely right that 
Roe v. Wade proceeds from a long provenance of cases. It was 
not conjured out of whole clock but rather proceeds from a 
series of decisions that were enacted in the 1920s, Meyer v. 
Nebraska, Pierce v. Society of Sisters, all of which held that 
parents have the right to upbringing of their children and 
upbringing of their choosing.
    From those protections, we get Griswold v. Connecticut, the 
right to privacy and the right to use contraception. From there 
we have Roe v. Wade and from there we have Lawrence v. Texas, 
the right to engage in consensual adult sexual relationships; 
and then from there, Obergefell v. Hodges in 2015, which 
affirms the right to marry a person of the same sex, and, of 
course, as you say, 1967, Loving v. Virginia. All of these are 
predicated on the same judicial founding, and if Roe falls, all 
of these other decisions are equally imperiled.
    Mr. Cohen. Thank you, Professor Murray. It is scary to 
think that we could go back to that era, and all those things 
that we consider rights and advancements would fall, and we 
would be back in the Dark Ages.
    I recognize the ranking member for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    We have heard some compelling testimony today. It is 
heartfelt on both sides, and we expected that, and I appreciate 
the civil tone of the dialogue. It is important for us, as 
American people.
    Look, there is a gallery full of young people here today, 
and I just want to say one thing before I get to my questions. 
I want to encourage all of you to examine the evidence for 
yourself. I had an eighth-grade teacher one time that told me 
that what is popular isn't always right and what is right isn't 
always popular, and you owe it to yourself to do your own 
homework.
    One of the majority witnesses today said something that 
really struck me. She said, quote, ``I am a human being that 
deserves autonomy in this country that calls itself free.'' 
Okay, but review the facts for yourself and you will see that 
the indisputable scientific evidence now shows us that when a 
human sperm meets and fertilizes a human egg, at the moment of 
conception, there becomes an unborn, living, genetically 
distinct and biologically self-directing human being. The 
question is, you should ask yourself quietly, why shouldn't 
each of those human beings deserve autonomy in this country 
that calls itself free?
    Let me get to my questions. Ms. Bennett, thank you for 
being here. Your testimony is compelling, and I appreciate you 
including in your statement Supreme Court Justice Clarence 
Thomas' concurring opinion in the Box case.
    I wanted to read a quick excerpt from that opinion. He 
said, quote, ``This case highlights the fact that abortion is 
an act rife with the potential for eugenic manipulation. From 
the beginning, birth control and abortion were promoted as a 
means of effectuating eugenics. Planned Parenthood founder, 
Margaret Sanger, was particularly open about the fact that 
birth control could be used for eugenic purposes. These 
arguments about the eugenic potential for birth control apply 
with even greater force to abortion which can be used to target 
specific children with unwanted characteristics.
    ``Even after World War II, future Planned Parenthood 
president, Alan Guttmacher, and other abortion advocates 
endorsed abortion for eugenic reasons and promoted it as a 
means of controlling the population and improving its quality. 
A growing body of evidence suggests that eugenic goals are 
already being realized through abortion.''
    Then he says this: ``Eight decades after Margaret Sanger's 
`Negro Project,' abortion in the U.S. is also marked by 
considerable racial disparity. The reported nationwide abortion 
ratio, the number of abortions per 1,000 live births among 
black women is nearly 3.5 times the ratio for white women.''
    Continuing to quote Justice Thomas, ``And there are areas 
in New York City in which black children are more likely to be 
aborted than they are to be born alive, and they are up to 
eight times more likely to be aborted than white children in 
the same area.''
    The question is, why do you believe the black community is 
being targeted by the abortion industry?
    Ms. Bennett. Thank you for the question. If you look at the 
history of the American Birth Control League, which later 
became Planned Parenthood, you will see that Margaret Sanger 
had this pseudoscience that she believed in eugenics 
philosophy, and it wasn't just her. It was also members of her 
board. One of her board members was named Lothrop Stoddard and 
he had a book called ``The Rising Tide of Color Against White 
Supremacy'', and it was all about how mixed races were growing 
and that was a threat to white supremacy.
    You have to ask yourself, what would a man like that, who 
wrote a book like that, why would he be interested in the birth 
control movement, particularly with targeting people of color? 
It was because they believed that certain people groups should 
prosper and grow and that would be a betterment to society, and 
other groups should not. And that was seen clearly in the 
writings of Margaret Sanger when she talked about people of 
color like weeds that should be exterminated.
    And she also had something called the Negro Project, in 
which she manipulated, you know, black ministers and people of 
color to go into their communities and to push birth control. 
Unfortunately, she also pushed sterilization. There are women 
today, like an African American friend I have, Elaine Riddick, 
who was sterilized in North Carolina after having one child. 
And she was told by doctors, ``We don't want you to reproduce 
after your own kind.''
    America has a dark history, and it involves racism. And now 
we see 78 percent of abortion facilities, Planned Parenthoods, 
are located in lower-income, minority neighborhoods. There is a 
great resource on protecting black life where they lay out the 
map of the United States, and you can go to that website and 
you can see the different areas that are targeted.
    And this is why people of color are standing up. The Church 
of God in Christ is the largest black denomination in America 
with over six million members, and recently they have started a 
movement to stand up against the targeting of African American 
community as well as a movement of adoption, encouraging their 
members to adopt.
    I will also say that African American women, being three 
times more likely to abort, it is not because we desire to have 
abortions more than anyone else. It is because we often feel 
like we don't have the resources, we don't have the support 
that we need.
    And so things do need to change. We do need help and I 
support in these areas. People should not be pressured like my 
mom was. People should not feel like they have to choose 
abortion because they don't have the resources to take care of 
themselves or to take care of their families. And so a lot has 
to change in order for us to truly be able to have equality in 
this country and not be targeted because of our lack of 
resources and who we are.
    Mr. Johnson. I greatly regret that I am out of time but I 
yield back. Thank you.
    Mr. Cohen. Thank you, Mr. Johnson.
    Mr. Nadler, you are recognized for five minutes.
    Mr. Nadler. Thank you. Professor Murray, there has been 
some suggestion, more than a suggestion, this morning, that 
efforts to provide abortion care are linked to an agenda based 
on eugenics and our design to control minority populations. As 
someone who has studied the history of reproductive rights in 
this country, what is your response to that argument?
    Ms. Murray. I am really grateful to have the opportunity to 
clarify the record. Like Ms. Bennett, I, too, have studied this 
history, and she is absolutely correct that the history of 
eugenics of this country is laced with the taint of racism, but 
it goes in both directions. Not only was eugenics used to 
promote the use of contraception and sterilization, it was also 
used to promote abortion, but from the other side.
    In the 1800s, when the first laws criminalizing abortion 
were enacted, it was because of nativist anxieties that native-
born white women were not having as many children as their 
darker-hued immigrant sisters, who were having too many. So the 
early effort to criminalize abortion is actually part of a 
vestige to overwhelm immigrant populations with native-born 
white births.
    I will also note, in response to Ms. Bennett's testimony, 
that adoption is an option but African American children are 
the ones who are most likely to linger in the child welfare 
system and in foster care, and are the least likely to be 
adopted.
    Thank you.
    Mr. Nadler. And it is true that eugenics is also a 
motivating factor, is it not, in much of the anti-immigration 
legislation? We have got to keep out the Jews, the Italians, 
the Slavs, and other Eastern Europeans in the early 20th 
century. Is that not the case?
    Ms. Murray. That is the case. My colleague at Berkeley, 
Jerome Karabel, documents some of that in his accounts of 
higher education in the United States.
    Mr. Nadler. Thank you. Last November, a Federal judge 
blocked Mississippi's ban on abortion after 15 weeks, ruling it 
was unequivocally unconstitutional. The court described that 
law as closer to the old Mississippi, a Mississippi bent on 
controlling women and minorities.
    You have already spoken about how restrictions on access to 
abortion fall disproportionately on women of color. Could you 
describe some ways in which an outright ban on access to 
abortion would impact women of color and other vulnerable 
populations, Professor?
    Ms. Murray. Women of color continue to bear the brunt of 
the burden of the restrictions on abortion access. They are 
often the most likely to be victims of economic insecurity and 
will not have the opportunity to travel, to go to places where 
they are able to get more liberalized access to abortion. They 
will also be more likely to have employment insecurity and not 
be in positions where they can take time off of work. They may 
also already be mothers to children and will have difficulty 
obtaining child care in order to comply with the waiting period 
and things of that nature.
    All of this is compounded by African American women's 
limitations in access to health care, the high rate of maternal 
morbidity in this country, and the high rate of infant 
mortality among African American children.
    Thank you.
    Mr. Nadler. And, Professor, the judge in that case also 
wrote that ``the State's professed interest in women's health 
care is pure gaslighting,'' unquote. This judge recognized a 
pretext for what it is. But now the case is on appeal to the 
Fifth Circuit, a court that is conservative to begin with, and 
now has five extreme right-wing judges appointed by President 
Trump.
    What are some of the ways in which judges who want to reach 
a particular political outcome could twist the facts in cases 
involving restrictions on access to abortion?
    Ms. Murray. Well, Chairman Nadler, we have already seen 
episodes where courts have consistently flouted the extant 
precedents of the Supreme Court. So in Whole Woman's Health v. 
Hellerstedt in 2016, this court struck down a Texas admitting 
privileges law that basically helped close a number of clinics 
in Texas. It was struck down in that case.
    Almost immediately after, the State of Louisiana passed a 
virtually similar admitting privileges law. Again, as we have 
heard today, these admitting privileges laws are often 
unnecessary in the case of abortion because abortion providers 
don't often have to admit their patients to hospitals because 
the procedure is so safe. So we have already seen, in that 
Louisiana case, June Medical Services, which is currently 
pending on cert before the Supreme Court, an effort by the 
Fifth Circuit, again, to flout the precedents that this court 
has articulated.
    Mr. Nadler. Thank you. Ms. Dalven, most State legislatures 
that are imposing extreme restrictions on abortion or outright 
bans are targeting the doctors for criminal penalties rather 
than the patients, although President Trump slipped up during 
the campaign. He said patients should be arrested and jailed. 
It is apparently no longer acceptable to say you will put women 
in prison for receiving an abortion. Can you describe why these 
laws would still end up punishing women who seek abortions?
    Ms. Dalven. It would--it can punish women in multiple ways. 
First, if there is no constitutional right to abortion, if the 
Supreme Court were to overturn Roe v. Wade, there would be 
nothing to stop states from going after women and punishing 
women. The fact that they are not saying that today doesn't 
mean that they will not say that tomorrow.
    Second, these laws do punish women by preventing them from 
getting the care that they need. These laws, a ban on abortion, 
is a punishment for a woman who needs one. And we know, in 
states like Georgia and Alabama, it is particularly galling. 
These states have some of the highest maternal mortality rates 
in the country. These are states that lack appropriate health 
care. They lack OB-GYNs, they lack obstetrical departments, and 
Georgia is one of the states in this country who has refused to 
expand Medicaid coverage to ensure that people can get the 
health care that they need.
    So bans on abortions, forcing people to stay pregnant 
against their will, is a punishment, aside from the criminal 
punishment that could befall women if Roe is overturned.
    Mr. Nadler. Let me ask one further question. If a court 
adopted a constitutional analysis that bans an abortion, 
perfectly okay because majorities don't like them, is there any 
difference that would prevent, constitutionally, a state from 
passing a ban on blood transfusions or open heart surgery, for 
example? Is there any juridical difference?
    Ms. Dalven. That is a question I have not considered but it 
would certainly be concerning if the State could step in and 
say that--and take medical practice out of the hands of doctors 
and ensure that--and prevent patients from getting the care 
that they need.
    Mr. Nadler. Thank you. My time has expired.
    Mr. Cohen. Mr. Gohmert, you are recognized for five 
minutes.
    Mr. Gohmert. Thank you, and I have been very pleased to 
hear some things made by our full committee chairman in this 
hearing, like the statement that is made, or the question, 
because I recall President Obama saying, in the White House 
town hall meeting, that under his Obamacare program a woman who 
had gotten a pacemaker that kept her alive for over a decade, 
the best thing would just give her a pain pill. So am glad to 
know that he now believes the State should not prevent someone 
like that from getting the health care they need.
    Ms. Ohden, it is good to see you again. I am curious. You 
shared in your testimony your birth mother's abortion was 
forced upon her. Have you heard of any other cases where 
potential birth mothers, or women that are talking about a 
potential abortion, had to deal with pressure to get an 
abortion?
    Ms. Ohden. Thank you for your question. It is correct. My 
biological mother, I now know, was forced to have this 
abortion. I didn't find that out until about six years ago now. 
My birth mother is now a huge part of my life. She is a great 
support to me. But I face the reality every day of the fact 
that not only was my life supposed to end but this is not 
something she wanted.
    And I know that she is not alone in that. There was a study 
done recently where 48 of women identified being coerced into 
their abortion. And again, I just want to thank all of the 
women for being here today. I know we have differing 
experiences and different opinions, but I think we are all 
passionate about wanting to help and serve women. And for me, 
personally, really one of the hardest things is that I receive 
emails on a regular basis from women who do exist in the 
shadows, not just other abortion survivors like me but women 
who had abortions, regret them, and are living in pain.
    I have to respond to the emails of women who say, 
``Melissa, can you help me obtain my medical records from my 
abortion? Can you help me find out if my child is living still 
today?'' That is an interesting place for someone like me to be 
in, but that is what I see in my experiences.
    Mr. Gohmert. Well, thank you, and I appreciate your working 
through that with other individuals.
    Ms. Busy Philipps, because you are sitting beside Dr. 
Phillips, but would you agree that somebody who has survived an 
abortion like Melisa Ohden has a right, when she is born, to 
life, to control over her body, where someone else doesn't take 
her life?
    Ms. Philipps. Well, first of all, I want to thank her for 
sharing her story. I--you know, it is not--although I played a 
doctor on television, sir, I am actually not a physician. 
[Laughter.]
    Mr. Gohmert. Right. No, but you have given very compelling 
testimony and I appreciate it. You have obviously given these 
issues a lot of thought.
    Ms. Philipps. Correct, sir.
    Mr. Gohmert. That is why I was asking you.
    Ms. Philipps. Yeah. I think that it is something that is 
very important. I don't believe that a politician's place is to 
decide what is best for a woman, and, you know, it is a choice 
between a woman and her doctor.
    I can't----
    Mr. Gohmert. So what about a baby and the doctor? That is 
my question.
    Ms. Philipps. Yes, sir. Well, I, again, I can't speak to 
her experience because I was not there, and so I do not want 
to----
    Mr. Gohmert. Okay. Well, I just wondered how far you are 
feeling about that, because once she is born, would you agree 
that she is a person in being?
    Ms. Philipps. Yeah. See, I am not speaking about birth, 
sir. I am speaking about----
    Mr. Gohmert. Okay. Well----
    Ms. Philipps [continuing]. Abortion.
    Mr. Gohmert. Well, I appreciate that, but the concern here 
is we have got 21 states that allow the termination, and we 
have heard the governor here----
    Ms. Philipps. Yes, and----
    Mr. Gohmert [continuing]. Just across the river, in 
Virginia. Thank you. I appreciate it.
    Ms. Philipps. No. I just wanted to say, Mr. Gohmert, I 
appreciate that, what you are trying to get at, and I do----
    Mr. Gohmert. Well, I wasn't trying to get at anything.
    Ms. Philipps. No, no, no.
    Mr. Gohmert. You have answered my question. You were sure--
so my time, I only have a minute and a half.
    I would like to ask, Ms. Bennett, you have obviously done a 
great deal of study. Have you run into others that you have 
personally talked to that were in situations like Ms. Ohden?
    Ms. Bennett. I have other friends who have survived an 
abortion. My friend, Claire Culwell, she survived an abortion. 
Unfortunately, the reason that she survived was because the 
abortion took the life of her twin brother, and the doctor, the 
abortion doctor didn't know that there was twins and so he 
thought that he had done a successful abortion. And then later 
on her mother realized that she was still pregnant and Claire 
was inside of her, because there was twins. And she was 
adopted, but when she was born she had to be put in a--she was 
in a body cast and her hip was dislocated, and she suffered 
greatly because of that.
    And there are other abortion survivors. Josiah Presley is 
another one, and he is missing part of his arm because of the 
abortion procedure. And like Melissa said, there are others 
that are in the shadows. It takes a lot of courage to come out 
and share a story like that. And so there are many more that 
we--we are not privileged to know their stories.
    Mr. Gohmert. Thank you. And I am being very serious. I 
appreciate all of you being here because I know what it is to 
come and testify, and I wish there were a better way to make 
laws than so-called politicians to come together and enforce 
their will through the laws. But, unfortunately, it happens 
every day. I wish it would happen a whole lot less. But I 
appreciate you all being here and your obvious concern about 
the issue.
    I yield back.
    Mr. Cohen. Thank you, sir. I recognize the chair.
    Mr. Nadler. Thank you, Mr. Chairman. I ask unanimous 
consent that this statement from the National Partnership for 
Women and Families be placed in the record.
    Mr. Cohen. Without objection.
    [The information follows:]
      

                   MR. NADLER FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Cohen. I now recognize Professor Raskin for five 
minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. It is hard 
for me to believe that this is a congressional hearing in 2019. 
It feels like a scene out of The Handmaid's Tale, what we are 
witnessing across the country and what we are hearing about 
today. So, Dr. Robinson, you practice in Alabama; is that 
right?
    Dr. Robinson. Yes.
    Mr. Raskin. And Alabama may soon have a law--tell me if I 
am correct--which would compel a 15-year-old girl who has been 
raped by her stepfather to bring--to bring the pregnancy to 
term, and if a doctor honored her wish to have an abortion that 
doctor would be facing 99 years in prison. Do I understand this 
law correctly?
    Dr. Robinson. That is correct. And like I said in my 
testimony, there is no other of medicine where physicians are 
being threatened with criminalization like this.
    If you were the patient, you would want your physician--you 
would want to be your physician's number one priority when you 
are sitting in front of them, and with women this should be the 
same. We shouldn't have physicians put in a place where they 
are having to contemplate criminal prosecution versus 
proceeding doing what is best for their patients.
    And if you don't mind, I would like to go back and refer to 
the question that was asked of Ms. Philipps, because I am a 
physician.
    Mr. Raskin. Please.
    Dr. Robinson. And states already have laws in place to 
protect neonates, but it is very, very important to understand 
that the scenario that was described is not the situation that 
we are seeing in abortion care here. I can't imagine any 
situation where that would happen, and I think it is really, 
really important that we understand----
    Mr. Raskin. And if it does happen it should be illegal, 
right, if there are unsanitary conditions.
    Dr. Robinson. Exactly.
    Mr. Raskin. If the women are not treated properly that is 
obviously a violation of every regulation and law, and whoever 
does that should be dealt with accordingly.
    Dr. Robinson. Exactly, and it is important to keep in mind 
that the majority of abortions take place early in the first 
trimester. We are not seeing women having abortions----
    Mr. Raskin. Let me ask you about that.
    Dr. Robinson [continuing]. In the third trimester.
    Mr. Raskin. Can I ask you about that? I have got a million 
questions for you, Dr. Robinson.
    Dr. Robinson. Okay.
    Mr. Raskin. Your story just seems extraordinary to me.
    We have heard from our friends across the aisle, and I 
appreciate the intellectual honesty today. But I want America 
to hear this. We have heard now that when a sperm unites with 
an egg that is a human life, and the logic of that is the 
Alabama law, which is if it was the product of a rape, it was 
the product of incest, if the woman is in--or girl is in no 
condition to start a family, to be a mother--still that girl 
would be forced to go ahead and to have a baby, even if it is 
week three, week four, because the moment--as I understand my 
colleagues, and the gentleman from Louisiana, I think, was very 
clear about it--when the egg and the sperm unite, that is a 
life and that is when it kicks in.
    Now let me ask you about that. You bring a lot of babies 
into existence, right? You are in OB-GYN and so you are--what 
do you think about this claim that it should be a criminal act 
for someone to terminate a pregnancy at one month, which was 
clearly protected under Roe v. Wade, it was clearly protected 
under Planned Parenthood v. Casey, which drew the line at 
viability outside the womb of the mother?
    Dr. Robinson. Well, I don't support any legislation that 
pushes abortion care out of the reach of women. I know, as a 
physician, that it is a really important that all women have 
access to the care they need, regardless of the point they are 
in their pregnancy, and I know that any legislation that takes 
this out of the hands of physicians and patients puts those 
women at risk.
    Mr. Raskin. Thank you. Ms. Dalven, let me come to you. So 
it is very clear that all of this litigation is meant to go up 
to the Supreme Court, which they have successfully 
gerrymandered now because of the stonewalling of my 
constituent, Merrick Garland, who didn't get a Supreme Court 
confirmation hearing. But they think now they have got the 
perfect straight flush. They are going to be able to destroy 
Roe v. Wade and Planned Parenthood v. Casey, and our colleagues 
across the aisle are cheering them along. Okay.
    Now, let us say this were to happen. I want to go back to 
this very interesting question about sterilization and 
compulsory abortion. If the choice is not a woman's to decide 
what happens with her pregnancy, pre-fetal viability, which is 
the Casey framework--so let us say Roe v. Wade is overturned, 
Casey is overturned. Could the 30 governments which had 
compulsory sterilization laws, just in the last century, not 
even a century ago, could they go back to having a compulsory 
sterilization law? Could authoritarian, right-wing governments 
throughout the country go to compulsory abortion laws for 
populations that they don't like, because it would not be a 
woman's right to choose? At that point it would just be up to 
the government to decide what happens in the woman's womb?
    Ms. Dalven. This is a real concern if the court were to say 
that people do not have the right to control what happens with 
their own body. Even that is a very frightening prospect and it 
could lead to the frightening prospects that you describe. But 
what we also know is that----
    Mr. Raskin. And that is not a crazy hypothetical, right? 
The majority of the states in the country had compulsory 
sterilization laws for populations that were deemed unfit by 
essentially authoritarian governments, and most of them were a 
lot of them existing in the very states which today are trying 
to ban the woman's right to choose.
    Ms. Dalven. It is certainly true that this country has a 
disgraceful history of those types of laws. We see those kinds 
of--and we see that kind of thing happening today, even today, 
with the Administration's policy of separating immigrant 
children from their families, so that is a real part of our 
history.
    Mr. Raskin. All right. I yield back. Thank you very much.
    Mr. Cohen. Thank you, sir.
    Mr. Cline, you are recognized for five minutes, our 
distinguished, young, first-year star.
    Mr. Cline. Thank you, Mr. Chairman. I appreciate the 
witnesses for being here today. I especially want to thank Ms. 
Bennett and Ms. Ohden for being here today as well. It is an 
amazing story for both of you, and it is remarkable that you 
are able to be here today.
    You know, Virginia, the Commonwealth of Virginia, is ground 
zero right now in the fight over late-term abortions, and while 
I appreciate the discussions of the chairman about states 
endeavoring to pass pro-life measures like Mississippi, we only 
need to look at his own State of New York to see just how 
extreme these laws have gotten.
    The law recently signed into--the bill recently signed into 
law by Governor Cuomo allows abortion on demand through the 
moment of birth; it allows non-doctors to perform abortions; 
could result in forcing health professionals to participate in 
abortions, even if they object; removes protections for 
children born alive during abortion attempts but leaves them at 
the mercy of the abortionist who just minutes earlier was 
trying to kill them; completely removes unborn children from 
the criminal code, meaning even those who are victims of 
violent crimes against pregnant women are unprotected.
    In Virginia, my own state, we recently saw similar 
legislation introduced, and the testimony by the patron, she 
summarized that the bill would have allowed abortionists to 
self-certify the necessity of late-term procedures, eliminate 
informed consent requirements, repeal health and safety 
standards for abortion facilities, permit late-term abortions 
to be performed in outpatient facilities, remove ultrasound 
requirements, and eliminate Virginia's 24-hour waiting period.
    In her testimony at the hearing, when she was given the 
hypothetical of a woman who was about to give birth, that has 
physical signs she is in labor, would that be a time when she 
could request an abortion if she were in the middle of labor 
and dilated? The delegate said, ``Mr. Chairman, that would be a 
decision that the doctor, the physician, and the woman would 
make at that point,'' and that her bill would allow that, yes. 
When she claimed that her bill would have done nothing to 
change Virginia's late-term abortion law, Politifact rated that 
false.
    We then heard from our own governor who, when discussing 
that bill, said, on the radio, quote, ``If a mother is in labor 
I can tell you exactly what would happen. The infant would be 
delivered. The infant would be kept comfortable. The infant 
would be resuscitated, if that is what the mother and the 
family desired, and then a discussion would ensue between the 
physicians and the mother.'' That is an extreme position.
    The 14th Amendment says ``nor shall any state deprive a 
person of life, liberty, or property,'' to begin, and then it 
goes on--there is no--the word ``abortion'' is not found in the 
14th Amendment but the word ``life'' is. And when we talk about 
protecting life I appreciate the difficult and challenging 
decisions that were made by the women on the panel, and their 
testimony is stirring. Two of the women were not talking about 
the important decisions affecting their lives. They were 
talking about their lives, the ability to even be here today, 
and that is significantly different.
    So I ask, Ms. Ohden, you have made it your life's work to 
discuss your story. Could you describe more about your efforts 
and the impact that your life, which could have been cut short, 
has had on others?
    Ms. Ohden. Thank you so much for all of your words, and for 
acknowledging, I think, what the white elephant in this room 
is, right? All of these people here today had a privilege that 
I was not given, and that is simply the right to be born, and 
not be born accidentally. And as you can hear in my voice, I 
get choked up about it. We see this as a political issue, but I 
have to live with this every single day.
    And like so many of you on this panel, yes, I am a mother. 
My daughters are 11 and almost 5. My oldest daughter was born 
at the very same hospital where my life was supposed to end, 
and trust me, I didn't want to do that. I didn't think I could 
do that. But my children will grow up knowing that they are 
only alive because an abortion failed to end their mother's 
life.
    That is why I do the work that I do, because I don't get to 
run away from this. I don't get to pretend like maybe this 
happens to someone else, that this maybe is an issue that 
doesn't affect me. And I truly believe that if each and every 
one of you in this room ever lived in my shoes, you would feel 
very differently about this issue.
    Mr. Cline. Thank you.
    Mr. Cohen. You are welcome, sir.
    Ms. Scanlon, you are recognized for five minutes.
    Ms. Scanlon. Thank you, Chairman Cohen, for holding this 
important hearing, you know, especially in light of recent 
attempts to limit critical reproductive rights for women across 
America.
    You know, as we are hearing, there are a million reasons 
why someone might choose to continue or end a pregnancy, 
reasons including the life or health of the mother; whether a 
fetus has a fatal illness or a severe anomaly; the 
circumstances of conception, including rape or incest; the 
mother's socioeconomic status; religious, philosophical 
beliefs. We have also heard, very eloquently, from some of our 
witnesses, of difficult situations that have informed their 
decisions, including, apparently, criminal acts, in some cases.
    As someone who has used Planned Parenthood for family 
planning services, to plan my own family, and has also held the 
hand of a young woman who chose to terminate her pregnancy 
after she was raped by a sexual predator 20 years her senior, I 
support the right of all women to make those choices based upon 
their own unique circumstances.
    I believe we must protect women's rights to have access to 
a full range of reproductive health care options and the 
ability to make those decisions in consultation with their 
medical providers, based upon their own circumstances and their 
own religious beliefs, not someone else's religious beliefs. I 
also want to thank the young people who are here today, 
particularly the young women who are taking a stand to protect 
those rights.
    Now, I am particularly concerned, based upon experience I 
have had with my clients in the legal services world, about the 
fact that a person's ZIP code or their socioeconomic status 
sometimes determines their ability to access basic medical 
care. And with that, Ms. Dalven, you have talked about the fact 
that we shouldn't have a theoretical right to abortions but 
that women with socioeconomic privilege often have more access 
to reproductive and abortion health care than others, and women 
of color or of limited means or in rural America are far more 
likely to have only a theoretical right to abortion.
    Can you speak to that topic and how bills like the Women's 
Health Protection Act, of which I am a proud co-sponsor, might 
address that issue of justice with respect to reproductive 
health care?
    Ms. Dalven. Yes. Thank you for the question. Because of 
restrictions already in place it is difficult, if not 
impossible, for many people, particularly low-income people, 
people of color, immigrants, folks who live in rural America, 
to get the care they need. And there are--I will just give you 
an example of three types of laws that contribute to that.
    One are laws that prevent insurance coverage from covering 
abortion care, like the Hyde Amendment, and other State--
similar laws. Those laws make it impossible for many people to 
pay for the care they need. There was a recent study by the Fed 
that showed that 40 percent of Americans would have real 
difficulty paying for an unexpected $400 expense. So you can 
imagine the difficulty of coming up with the money for an 
abortion.
    The second type of laws are clinic shutdown laws that have 
left 11 million American women more than an hour's drive from a 
clinic.
    And the third are laws that require people to make multiple 
unnecessary trips to the clinic before they can get the 
abortion care they need.
    So just imagine that you are a person who has a minimum-
wage shift job that doesn't allow you any flexibility to take 
time off of work, doesn't allow you any paid time off, and you 
are trying to mount these really insurmountable barriers of 
trying to get to the clinic, not once, not twice, not around 
the corner but more than 100 miles away, perhaps without a car, 
often without public transportation systems. It is really near 
impossible for people to get the care they need.
    We heard Dr. Robinson talk about her patients who have to 
sleep in the car overnight because they lack the means to stay 
in a hotel and are forced to go to these unnecessary trips.
    So I really thank you for the question because it shows 
that even if the court doesn't overturn Roe, we have tremendous 
barriers and we need the Women's Health Protection Act and the 
Each Women Act to ensure that every person who needs an 
abortion can get it, no matter where they live and no matter 
how much money they make.
    Ms. Scanlon. And, Dr. Robinson, one quick question for you. 
There has been some arguments made today that providing 
abortion care harms women of color and minority populations. Do 
you have a response to the suggestion that by providing the 
care that you give you are harming minority communities?
    Dr. Robinson. I am appalled by any insinuation that refers 
to the painful history that we, as African Americans, have 
experienced, the oppression that my people have experienced, to 
use that as a way to restrict abortion access. I know that all 
women need access to safe abortion care, women from all 
backgrounds, and it is very important that we focus on what is 
most important, and utilizing race as a reason or to point out 
a reason that we should not have this access is unacceptable.
    Ms. Scanlon. Thank you. I yield back.
    Mr. Cohen. Ms. Garcia from Houston, Texas, is recognized 
for five minutes.
    Ms. Garcia. Thank you, Mr. Chairman, and thank you for 
giving us the opportunity to talk about a very important topic, 
and perhaps prepare for what may be coming later in the Supreme 
Court.
    Before I begin my question I wanted to introduce someone in 
the audience, Alicia Hutt, who is here with us today, shadowing 
me. You know, Congresswoman Bass has a shadow program from her 
Caucus on Foster Youth, and we are really pleased to have her 
today. I think she is getting a really good, on-the-ground 
education. She is a social work student in Texas and I would 
like to welcome her today.
    Secondly, you know, I am 1 of 10 children. I am Catholic 
but I am pro-choice. I know what my church says but I also know 
that I cannot impose those religious beliefs on others. So I 
have been an advocate for a woman's right to choose, which 
simply does mean that it is up to the woman, her physician, and 
her network--her husband, her family--to make this decision, 
and it is not something that a politician should set their will 
on someone else.
    So for me it is troubling to hear some of the remarks that 
have been made by some of my colleagues and some of the 
witnesses, particularly when it comes to serving vulnerable 
populations, underserved populations, and women of color. 
Because I have seen, firsthand, what it does in terms of 
negative impact when women of color in underserved communities 
don't have the proper health care that they need.
    And I was really struck by the testimony of Dr. Phillips, 
when you said that the mortality rate is increasing because we 
are putting more focus on the fetal well-being than on the 
mother's well-being.
    Could you just--I mean, what does that really mean? I mean, 
how does it impact Latinas like myself? How does it impact 
African American women, Native American women, if that focus is 
shifting?
    Dr. Phillips. Thank you for this question. There are many 
avenues by which we are seeing this play out in the medical 
field. One is perhaps altruistic, in a sense. Physicians are 
working to promote fetal well-being by postponing deliveries 
under circumstances where we realize that continuing the 
pregnancy for even a day or a week may increase that patient's 
risk of acute issues, including mortality, and now long-term 
health care risks. They may be doing this because they are 
hoping for the best and thinking that they can postpone 
delivery until the fetus is a little bit farther along.
    But there are many examples of communities where the 
doctors themselves have different approaches and are postponing 
care for the patient, who is in front of them, the person who 
is front of them with the idea that they are instead promoting 
fetal well-being. And one way to understand this is to 
understand the ethical principles that all physicians are 
guided by. The individual in front of us is our patient, but 
she is also the person. That is the definition. The fetus is a 
patient but does not have the personal rights that supersede 
the woman's. And this plays out all the time care.
    Ms. Garcia. And, in fact, we have one of the highest 
mortality rates in this country.
    Dr. Phillips. Right. Right.
    Ms. Garcia. Higher than some other Third World countries.
    Dr. Phillips. Correct, and a lot of research into this, and 
questioning into this, may very well be that either the health 
care systems or the doctors themselves or opinions of 
physicians themselves may be pushing the limits----
    Ms. Garcia. Thank you.
    Dr. Phillips [continuing]. Of maternal health and care.
    Ms. Garcia. Thank you. I need to get one more in, and this 
one is for Ms. Dalven.
    You also have had a case that involved the Trump 
administration's, in my mind, blatant abuse of constitutional 
law by trying to block abortion access to immigrant woman. What 
is the status of that case and where might we be going in the 
future?
    Ms. Dalven. Thank you for your question. This was a case, 
we call it the Jane Doe case. Jane Doe was a young woman who 
came to this country without her parents, seeking a better life 
for herself. She was put into a government-run shelter and 
found out she was pregnant and requested an abortion, and the 
Trump administration did everything they could to block her, 
took every single step they could. They sent her to an anti-
abortion counseling center, they told her abusive parents, and 
then they simply blocked the doors.
    So we went to court on her behalf. She was resolute in her 
decision, and after four weeks of unconstitutional delay Ms. 
Doe was able to finally get her abortion.
    That did not stop the Trump administration. We had to go to 
court on behalf of young woman, after young woman, after young 
woman, until we finally got the court to say that we could--
that the Administration couldn't enforce this policy against 
any pregnant person.
    The Trump administration did not stop. They have appealed 
that decision and we are waiting for a decision from the Court 
of Appeals.
    Ms. Garcia. Thank you. I yield back.
    Mr. Cohen. Thank you, Ms. Garcia, and like Ms. Garcia, and 
like Archie Bell and the Drells, from Houston, Texas, Sheila 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you, and how important 
this hearing is to all of the witnesses. Whether agree with 
your positions or not, this is a crucial human rights question. 
This is a question of dignity and respect. I take great issue 
to the fact that anyone who believes in choice, which is far 
different from flag waivers for abortion, which is how the 
anti-abortion people try to portray us, and we are not. And I 
refuse to accept that definition because we are a multi-
conglomerate of individuals of faith and other perspectives. We 
are women and we are men, and we are Americans. And my heart 
broke with the series of outrageous, despotic legislative acts 
from pompous, self-righteous men who had the audacity, and it 
might have been men and women, who had the audacity to take 
away the liberty of anyone.
    Let me say that I believe that in the course of Supreme 
Court cases and others, the dignity of the unborn is respected. 
I have been through a lot, partial birth abortion and others, 
which is not a free-for-all. It is a medical decision being 
made by a doctor, the faith of the individual and family.
    Let me quickly ask these questions so my time does not run 
out, but I want to be very clear that I take great issue with 
definitions that are not me. What is a definition of myself is 
the fact that I lived through the era of coat hangers, 
brokenhearted lives, and death, bleeding to death, backroom 
operating tables or back alleys, or young people being in your 
church and all of a sudden you didn't know where they were. God 
forbid they had died or they were sent somewhere to have that 
baby. Is that the life that we want for a free and equal 
country?
    Let me, Ms. Murray, I have great respect for your family, 
the Hill family, and, of course, Professor Hill. The late 
Professor Hill himself was a great humanitarian, lost his life 
shortly after returning from South Africa on the question of 
climate. What a visionary. Thank you for being here, and thank 
you for your work. I want you to answer that question of this 
whole Fourteenth Amendment and the dastardly series of 
legislative initiatives, and particularly in Alabama, which is 
absolutely appalling. If you would hold your point, I just want 
to get all my questions out and be fair to the chairman to make 
sure that I have all of them.
    Let me just say to the ACLU, that case was in our district. 
We are honored by the fact that you never stopped, that young 
lady. I may be able to ask you a question, but I am going to 
just thank you for your work.
    Dr. Robinson, you lived it. You are from Huntsville, and I 
happen to have been on the board of Oakwood College. You are 
from Huntsville. I couldn't imagine the picture of those who 
voted for it, but from a health perspective, how devastating is 
it to women's health? How many lives are we going to lose if we 
continue in this ridiculous pathway? And let me go to Ms. 
Dalven, as well. Is it true that States placing such 
restrictions on reproductive care under the guise of ensuring 
the health of these constituents is, in fact, deficient of 
evidence? And you state that in Alabama, two-thirds of the 
counties do not have a hospital that offer obstetrical care and 
has the highest infant mortality rate. So for those who love 
life, how devastating it is to not have this in Alabama, and 
then look what they do. How outrageous.
    So three people I have given a question. Professor Murray, 
thank you. Welcome.
    Ms. Murray. Thank you, Representative Lee. Thank you for 
remembering my father-in-law, Dr. Hill, who was indeed a great 
man, a greater Houstonian. Let me first start with your point 
about the Fourteenth Amendment. You are absolutely right that 
the recent laws enacted in Alabama and Georgia flagrantly flout 
the precedents of this Court. They are patently 
unconstitutional. We only need the Supreme Court to follow 
exigent precedent to discover that.
    I also wanted to point out that Representative Cline noted 
that the right to abortion is not included in the Constitution. 
I will only note that there are other rights that are not 
included explicitly in the Constitution, like the right to 
marry, the right to raise children in the manner of your 
choosing, the right to travel, and, more recently, the concept 
of executive privilege that we have heard quite a bit about. 
None of these are explicitly enumerated in the Constitution. 
Thank you.
    Ms. Jackson Lee. Thank you. Dr. Robinson? I think that is 
Dr. Robinson? You heard my question to you?
    Dr. Robinson. Could you repeat it, please?
    Ms. Jackson Lee. Well, I asked you about the problem, you 
having experienced it, but the problem of the particular law in 
Alabama as it impacts on having children or not.
    Dr. Robinson. Yes, I am experiencing that. I am an 
obstetrician/gynecologist, and I am already seeing the impacts 
of people having opposition to abortion care, and like we 
talked about earlier, focusing more on the fetus and not the 
mother. As an obstetrician, I have two scenarios that I can 
explain to you very quickly just so you understand how this 
impacts patients.
    One young lady with severe preeclampsia, which, if she was 
not delivered, she continues to get worse, and it could cause 
her to die or either severely harm her health over the long 
term. I had difficulty getting the approvals I needed to 
deliver that young lady in the hospital. And also with a mother 
who was pregnant with twins. She delivered very early. She was 
only 20 weeks, and after one fetus passed, she was bleeding 
very briskly in the room. However, we did not want to do a 
Cesarean section because that would be an unnecessary procedure 
for that mother. I asked a nurse to go ahead and start her 
Pitocin just to make her start to contract so that the other 
fetus could pass to decrease her hemorrhaging. And even in that 
case, after I had left the room and I came back and asked had 
the orders that I had given, have they been implemented, I was 
told that they had not because one fetus, the fetus that was 
still remaining inside, had cardiac activity or still had a 
heartbeat. Either way it goes, this mother, she was bleeding. 
She was very pre-term, and that fetus was going to be expelled. 
The water had already broken.
    And I appreciate the scenarios or the situations that these 
young ladies shared, but I would like you to know that those 
are criminal acts, and we already have laws against that. So 
that is not what abortion providers are doing here. Generally 
when there is a pregnancy that we induce in the third 
trimester, it is for fetal indications. And in that case, those 
fetuses are not going to live outside of the womb. They have 
medical diagnoses that will prevent that. And when you propose 
a scenario when you have a fetus born live in a clinic, you ask 
would we render any care, like I said, we have laws that 
already protect neonates, but this is not happening in abortion 
clinics in Alabama.
    But I would tell you, if it ever did happen, I would say we 
should transfer those babies, but that does not happen. And for 
those that are born because of fetal anomalies, they can't live 
outside of the womb.
    Ms. Jackson Lee. Thank you.
    Dr. Robinson. So I would be against implementing any heroic 
measures in transferring to the hospital.
    Ms. Jackson Lee. Thank you.
    Dr. Robinson. It would be a waste of resources.
    Ms. Jackson Lee. Thank you. May I get Ms. Dalven to--thank 
you so very much. I am sorry.
    Mr. Cohen. Thank you. We are out of time.
    Ms. Jackson Lee. Well, could she just answer the maternal 
mortality? She was my third person.
    Mr. Johnson of Louisiana. Mr. Chairman, if we allow that, 
could I have 1 additional minute, and we could all be fair?
    Ms. Jackson Lee. Well----
    Mr. Cohen. That is why we are not going to allow it. 
[Laughter.]
    Ms. Jackson Lee. If you could give it to me in writing, Ms. 
Dalven.
    Thank you so very much.
    Mr. Cohen. Thank you very much. We have had an excellent 
hearing. I would want to have one more question, and that is, 
Ms. Gray, you have been an excellent witness. You are the 
youngest of the panel, and oftentimes the youngest gets 
overlooked. A long time ago I was the youngest, and I would 
just like to ask you if you have anything you would like to 
express to us about your experience, either in this particular 
area or just about being here in Congress and what you thought 
of this panel, and what you think we should do better.
    Ms. Gray. Thank you for asking me. I am very happy to be 
here and seeing all sides of this debate. The thing that I want 
us to leave with is that the barriers I personally faced and 
many people face in accessing abortion, it is really just 
another step to criminalizing poor people. And in doing that, 
we are making it harder for people to have families. We are 
making it harder for people to decide that they can't afford to 
have families. We are making it harder for people like my 
father to be able to get homes, and people like my mother to be 
able to be rehabbed and have normal, successful lives.
    Another thing that I would like for us to leave with is 
that whether we all know it, we know someone who has an 
abortion. We know someone who has been impacted by these laws, 
and it is unfair for us to pass our judgment, especially when 
we are passing judgment on people who want and need our 
support. I want to thank you for having me here, and I want 
everyone to know that everyone loves someone who has had an 
abortion. Thank you.
    Mr. Cohen. Thank you, and I want to thank you and everybody 
else on our panel for being here. We have had a great, great 
panel. Thank you all.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or any 
additional materials for the record.
    With that, the hearing is adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
      

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
